No.
IN THE
SUPREME COURT OF THE UNITED STATES
AMBER BOYER
Petitioner
V.

SCHNEIDER ELECTRIC HOLDINGS, INC. LIFE INSURANCE AND
ACCIDENT PLAN,
SCHNEIDER ELECTRIC HOLDINGS, INC., and
UNUM LIFE INSURANCE COMPANY OF AMERICA
Respondents
On Petition For Writ of Certiorari
To The Supreme Court of the United States

PETITION FOR WRIT OF CERTIORARI
JAMES E. MEADOWS
Counsel of Record
KUTAK ROCK LLP
300 S. JOHN Q. HAMMONS PARKWAY, SUITE 800
SPRINGFIELD, MISSOURI, 65804
(417) 720-1410

QUESTIONS PRESENTED
Petitioner Amber Boyer’s brother died in a tragic car
accident but his insurer, Unum Life Insurance Company
of America, has refused to pay on the policy he
purchased. This is an Employee Retirement Income
Security Act of 1974 (“ERISA”) benefits-due case. Ms.
Boyer is the beneficiary of an accidental-death and
supplemental accidental-death policy purchased by her
brother Eric Boyer. The plan administrator of the ERISA
plan is Unum Life Insurance Company of America,
denied coverage following Mr. Boyer’s death in a singlecar accident. Unum alleges that the crash occurred
while Mr. Boyer was speeding and passing in a nopassing zone. As plan administrator, Unum determined
that coverage was excluded under a “crime” exclusion in
the accidental death policy. The questions presented
are:
1. Whether the ERISA Plan Administrator’s
interpretation of “crime” to include speeding and
improper passing was unreasonable when
denying coverage under a crime exclusion in an
accidental-death policy.
2. Whether the ERISA Plan Administrator’s
decision to deny accidental-death coverage was
supported by substantial evidence.

i

TABLE OF CONTENTS
QUESTIONS PRESENTED ...........................................i
TABLE OF AUTHORITIES ........................................... iii
PETITION FOR A WRIT OF CERTIORARI .................. 1
OPINIONS BELOW ...................................................... 1
JURISDICTION ............................................................ 1
STATUTES IMPLICATED ............................................ 1
STATEMENT ............................................................... 1
REASONS FOR GRANTING THE WRIT ..................... 3
CONCLUSION ........................................................... 12
APPENDIX ................................................................. 1A

ii

TABLE OF AUTHORITIES
CASES
Boyer v. Schneider Electric Holdings, Inc.
Life and Accident Plan, et al. No: 193144, United States Court of Appeals
for the Eighth Circuit, 993 F.3d 578 ........................ 1
Boyer v. Schneider Electric Holdings, Inc.
Life and Accident Plan, et al. No. 3:17cv-05053, U.S. District Court for the
Western
District
of
Missouri,
Southwestern Division, 350 F. Supp. 3d
854 .......................................................................... 1
Caldwell v. UNUM Life Ins. Co. of Am., 786
F. App'x 816 (10th Cir. 2019), cert.
denied, 140 S. Ct. 2510, 206 L. Ed. 2d
464 (2020) .............................................................. 4
Darvell v. Life Ins. Co. of N. Am., 597 F.3d
929, 934 (8th Cir. 2010) ........................................ 12
Fulkerson v. Unum Life Ins. Co. of Am., No.
1:19-CV-01180, 2021 WL 1214683, at
*1 (N.D. Ohio Mar. 31, 2021) .................................. 4
Harrison v. Unum Life Ins. Co. of Am., No.
CV-04-21-PB, 2005 WL 827090, at *4
(D.N.H. Apr. 11, 2005) ...................................... 5, 11
King v. Hartford Life & Acc. Ins. Co., 414
F.3d 994, 1008 (8th Cir. 2005) (J.
Bright, concurring)................................................. 12
Landress v. Phoenix Mut. Life Ins. ............................... 6
Loberg v. Cigna Grp. Ins., 781 F. Supp. 2d
857, 865 (D. Neb. 2011) ......................................... 5
McClelland v. Life Ins. Co. of N. Am., 679
F.3d 755, 757 (8th Cir. 2012) .............................. 5, 9
Oomrigar v. Unum Life Ins. Co. of Am., No.
2:16-CV-940 TS, 2017 WL 3913277, at
*1 (D. Utah Sept. 6, 2017) ....................................... 4
River v. Edward D. Jones Co., 646 F.3d
iii

1029, 1031 (8th Cir. 2011) ................................. 5,10
Wickman v. Nw. Nat. Ins. Co., 908 F.2d
1077, 1086 (1st Cir. 1990) (citing
10 Couch on Insurance 2d § 41:31, 50
(1982)) .................................................................... 8
STATUTES
§ 574.035, RSMo. ........................................................ 6
§ 577.070 RSMo. ......................................................... 6
28 U.S.C § 1254 ........................................................... 1
28 U.S.C.A. § 1331 ...................................................... 2
29 U.S.C.A. § 1022 (West) ....................................... 1, 8
29 U.S.C.A. § 1132(e) ............................................... 1,2
RULES
United States Supreme Court Rule 10(c).
Rule 10(c) ............................................................... 3

iv

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Eighth Circuit.
OPINIONS BELOW
Boyer v. Schneider Electric Holdings, Inc. Life and
Accident Plan, et al. No. 3:17-cv-05053, U.S. District
Court for the Western District of Missouri, Southwestern
Division. Judgment entered September 30, 2019. The
opinion is published at 350 F.Supp.3d 854.
Boyer v. Schneider Electric Holdings, Inc. Life and
Accident Plan, et al. No: 19-3144, United States Court
of Appeals for the Eighth Circuit. Judgment entered on
April 5, 2021. The opinion is published at 993 F.3d 578.
JURISDICTION
The United States Court of Appeals for the Eighth
Circuit entered a judgment in this matter on April 5, 2021.
The Eighth Circuit reversed a judgment entered in favor
of Petitioner Amber Boyer by the U.S. District Court for
the Western District of Missouri, Southwestern Division.
The Eighth Circuit denied Petitioner’s Petition for
Rehearing en banc on May 14, 2021.
This Writ of
Certiorari has been filed within one hundred eighty days
of the denial of Petitioner’s Petition for Rehearing
pursuant to this Court’s Order related to COVID-19 dated
July 19, 2021. This Court has jurisdiction under 28 U.S.C
§ 1254.
STATUTES IMPLICATED
This is an Employee Retirement Income Security
Act of 1974 (“ERISA”) benefits-due case. 29 U.S.C.A. §
1022, 1132.
STATEMENT
This is an ERISA benefits-due case. Petitioner Amber
Boyer (hereinafter “Ms. Boyer”) is the sister of Eric
1

Boyer, the decedent policy holder. Prior to his death in
January 2016, Mr. Boyer held an accidental death policy
and supplemental accidental death policy (collectively
the “Plan”) issued through his employer. Ms. Boyer is
the sole beneficiary of benefits due under the Plan.
Respondent Unum Life Insurance Company of America
(“Unum”) is the plan administrator and insurer of the
Plan. As the decision-maker and payor under the Plan,
Unum makes coverage decisions and pays (or denies)
Plan benefits. Following Mr. Boyer’s death, Unum
denied coverage, citing two reasons: (1) that coverage
was excluded because Mr. Boyer allegedly died during
the commission of a crime—namely speeding and
improper passing, and (2) that Mr. Boyer’s death did not
constitute an “accident” under the Plan.
The U.S. District Court for the Western District of
Missouri disagreed. It granted motions for summary
judgment in favor of Ms. Boyer. The U.S. District Court
had original subject-matter jurisdiction pursuant to 29
U.S.C.A. § 1132(e) and 28 U.S.C.A. § 1331. The United
States Court of Appeals for the Eighth Circuit reversed
the judgment entered in favor of Petitioner Amber Boyer
by the District Court reasoning that Unum’s interpretation
of crime was reasonable and the denial of benefits based
upon the “crime exclusion” was supported by substantial
evidence. The Eighth Court did not address whether Mr.
Boyer’s death constituted an “accident” under the Plan.
Mr. Boyer was pronounced dead at the scene of a
single-car accident on January 22, 2016. A toxicology
report made following his death showed no trace of
drugs or alcohol.
The St. Louis County Medical
Examiner’s Office ruled the death an “accident” caused
by blunt craniocerebral and thoracic trauma. Unum
denied coverage, in part, based upon a “crime” exclusion
2

in the Plan. The Plan provides: “Your plan does not
cover any accidental losses caused by, contributed to by,
or resulting from . . . an attempt to commit or commission
of a crime.” The term “crime” is not defined in the Plan.
However, Unum’s claims manual provides: “Attempt to
commit” or “commission” policy language was not
intended to apply to activities which would generally
be classified as “traffic violations.”
Unum’s conclusion that the crime exclusion applied
was based solely upon a Missouri Uniform Crash Report
created by the St. Louis County Police Department
following Mr. Boyer’s crash. The Crash Report included
the statements of five witnesses and listed probable
contributing circumstances of improper passing and
speed. Four of the witnesses observed Mr. Boyer’s
vehicle in their rear-view mirror, including an off-duty
police officer who estimated that Mr. Boyer was travelling
approximately eighty (80) miles per hour. His opinion
was based solely upon his observation of Mr. Boyer
approaching from the rear. No accident reconstruction
done, and no objective evidence of speed was collected.
Unum also did not contact any local prosecutors to
determine whether Mr. Boyer would have been charged
with a crime had he not died. Finally, Unum disregarded
its own claims manual’s conclusion that the crime
exclusion does not apply to traffic violations.
REASONS FOR GRANTING THE WRIT
This Petition for Writ of Certiorari should be granted
pursuant to United States Supreme Court Rule 10(c).
Rule 10(c), provides that the Court has discretion to
grant Petitions for Writ of Certiorari where “a United
states court of appeals has decided an important
question of federal law that has not been, but should be,
settled by this Court . . . .” Here, the Eighth Circuit has
3

determined that an ERISA plan administrator may
haphazardly deny coverage by including a crime
exclusion in its Plan. Further, plan administrators are not
required to define the term “crime” nor are they required
to undertake a meaningful investigation of the alleged
crime. The decision will have broad implications for all
insureds participating in ERISA plans.
Unum’s use of its crime exclusion to exclude coverage
is not restricted to the Eighth Circuit. While a circuit-split
does not yet exist, Unum’s crime exclusion has been the
subject of litigation across the country. See e.g.
Oomrigar v. Unum Life Ins. Co. of Am., No. 2:16-CV-940
TS, 2017 WL 3913277, at *1 (D. Utah Sept. 6, 2017)
(coverage excluded where defendant died evading
police); Caldwell v. UNUM Life Ins. Co. of Am., 786 F.
App'x 816 (10th Cir. 2019), cert. denied, 140 S. Ct. 2510,
206 L. Ed. 2d 464 (2020) (coverage excluded based
upon speeding). Most recently, a District Court in Ohio
overturned Unum’s decision to deny coverage based
upon the crime exclusion in a case of speeding. See e.g.
Fulkerson v. Unum Life Ins. Co. of Am., No. 1:19-CV01180, 2021 WL 1214683, at *1 (N.D. Ohio Mar. 31,
2021). The Fulkerson decision has been appealed by
Unum to the Sixth Circuit Court of Appeals. So far,
courts in the Sixth, Eighth, and Tenth circuits have
wrestled with the crime exclusion and, unless a decision
is made by this Court, this trend will continue to the
detriment of insureds.
Unum’s crime exclusion was implemented after
ERISA insurers began to be forced by courts to pay
benefits in alcohol-related deaths. See e.g., McClelland
v. Life Ins. Co. of N. Am., 679 F.3d 755, 757 (8th Cir.
2012); Loberg v. Cigna Grp. Ins., 781 F. Supp. 2d 857,
865 (D. Neb. 2011). In these cases, the Court of Appeals
4

correctly noted that drunk driving accidents were just
that, accidents. McClelland v. Life Ins. Co. of N. Am.,
679 F.3d 755, 761 (8th Cir. 2012). Thus, insurers could
not exclude coverage absent a specific exclusion. In a
reaction to these decisions, many insurers began writing
in an exclusion of coverage where the insured died while
driving under the influence of drugs or alcohol. See e.g.
River v. Edward D. Jones Co., 646 F.3d 1029, 1031 (8th
Cir.2011) (for an example of an ERISA qualified plan
which wrote an intoxication exception into its plan).
Unum went a step further and enacted the subject
“crime” exclusion. It has done so without defining the
term crime. Instead, it relies haphazardly on dictionary
definitions or state law, depending on which definition is
helpful to Unum’s quest to deny claims. Here, Unum
points to Missouri state law to supply a definition of the
crimes. In the past, Unum took the opposite approach—
arguing state law should not apply—when it denied
coverage under the same crime exclusion in New
Hampshire, as New Hampshire defined a DWI as a
“violation” rather than a crime. See Harrison v. Unum
Life Ins. Co. of Am., No. CV-04-21-PB, 2005 WL 827090,
at *4 (D.N.H. Apr. 11, 2005)1 (long term disability benefits
denial based upon DUI). Under Unum’s definition here,
coverage claims could be denied in most auto crashes,
and many other deaths most people would call

1

Although the District Court in Harrison affirmed the application of
Unum’s broad definition of DWI, it did so expressing doubt as to
whether the same approach could be extended to less serious
violations: “It remains to be seen whether Unum's broad definition of
crime would withstand scrutiny in a case where the underlying
offense at issue lacks a similar penological pedigree.” Harrison v.
Unum Life Ins. Co. of Am., No. CV-04-21-PB, 2005 WL 827090 at
*3, n. 3 (D.N.H. Apr. 11, 2005).

5

accidents, due to the broad and ever-widening scope of
criminal law. See, e.g. § 574.035, RSMo. (disturbing a
house of worship); § 577.070 RSMo. (littering).
Unum clearly crafted the crime exclusion in a way that
allows it to interpret and apply the exclusion in a broadly.
The breadth of the exclusion is illustrated by the fact that
Unum saw fit to clarify internally that the crime exclusion
“was not intended to apply to activities which would
generally be classified as traffic violations.” Presumably,
Unum would not be required to offer internal guidance to
those interpreting the language if the language in the
Plan was clear on its own. If the exclusion was inherently
clear, Unum would not be required to employ dictionary
definitions in some instances and state law in others.
Confusion is not a new concept in accidental death
insurance. In fact, the term “accident” has been a
subject of strife between insurers, insureds, and the
courts for decades. The confusion, as here, is borne of
insurers’ attempts to exclude coverage even in illogical
circumstances. This Court entertained such a case in
Landress v. Phoenix Mut. Life Ins. when it upheld a
distinction between accidental means and accidental
results.2 291 U.S. 491 (1934). In Landress, this Court
upheld an insurer’s decision to deny coverage after an
insured died of a heat stroke during a round of golf. The
Court reasoned that under the relevant policy language
it is not enough “that the death or injury was accidental
in the understanding of the average man-that the result
of the exposure ‘was something unforeseen,
unexpected, extraordinary, an unlooked-for mishap, and
2

Unum also implored the district court to apply the accidental
means standard to the case at hand when it argued that Mr. Boyer’s
death did not meet its definition of accident, despite a long history of
case law rejecting the approach in Landress.

6

so an accident,’ for here the carefully chosen words
defining liability distinguish between the result and the
external means which produces it.” Id. at 495-96 (1934).
In sum, the Landress court drew a distinction between
deaths caused by accidental means and those caused
by accidental results and held that intending to play golf
rendered the death not an accident.
The majority’s decision was sharply criticized by
Justice Cardozo’s dissent. Justice Cardozo remarked
that:
Probably it is true to say that in the strictest
sense and dealing with the region of
physical nature there is no such thing as an
accident. .... On the other hand, the
average man is convinced that there is,
and so certainly is the man who takes out
a policy of accident insurance. It is his
reading of the policy that is to be
accepted as our guide, with the help of
the established rule that ambiguities
and uncertainties are to be resolved
against the company.
.....
When a man has died in such a way that
his death is spoken of as an accident, he
has died because of an accident, and
hence by accidental means.
(Id. At 499-500 (emphasis added) (internal
quotations and citation omitted).
Cardozo warned that the confusion regarding accident
insurance would “plunge this branch of the law into a
Serbonian Bog.” Id. at 499. Fortunately for insureds,
the law has mostly exited the bog and courts have since

7

rejected the distinction between accidental means and
accidental results citing logic.
It is illogical to purport to distinguish
between the accidental character of the
result and the means which produce it; that
the distinction gives to “accidental means”
a technical definition which is not in
harmony with the understanding of the
common man; and that the ambiguity
found in the concept should be resolved
against the insurer so as to permit
coverage.
Wickman v. Nw. Nat. Ins. Co., 908 F.2d 1077, 1086 (1st
Cir. 1990) (citing 10 Couch on Insurance 2d § 41:31, 50
(1982)).
The distinction between accidental means and results
is not at issue in this case but an illogical interpretation
of accident insurance is at play.
Taking Justice
Cardozo’s suggestion—that insurance policies should
be understood by the average policy holder—Congress
passed the Employee Retirement Income Security Act of
1974. The Act requires ERISA plans to be “be written in
a manner calculated to be understood by the average
plan participant, and shall be sufficiently accurate and
comprehensive to reasonably apprise such participants
and beneficiaries of their rights and obligations under the
plan.” 29 U.S.C.A. § 1022 (West) (emphasis added). To
be sure, if the Plan cannot be understood by Unum’s
claims representatives without its claims manual
defining “crime” (and excluding traffic violations), an
average plan participant cannot be expected to
understand the crime exclusion to exclude coverage for
a car accident allegedly contributed to by speeding and
improper passing. Clearly, Unum’s interpretation of the
8

crime exclusion violates the substantive rights of plan
participants and, without Court intervention, other
insurers will surely follow suit, undermining the purposes
of ERISA.
Unum’s adoption of a crime exclusion into an ERISA
plan creates additional legal issues beyond how the word
“crime” is defined in the plan. “A plan administrator's
decision is an abuse of discretion if it is not supported by
substantial evidence.” McClelland v. Life Ins. Co. of N.
Am., 679 F.3d 755, 759 (8th Cir. 2012) (citing Wrenn v.
Principal Life Ins. Co., 636 F.3d 921, 925 (8th Circuit
2012). Under the Eighth Circuit’s holding in the case,
Unum arbitrarily determines that a crime has been
committed without any evidence and upon a lower
standard than even that required for probable cause.
The broad nature of the crime exclusion undermines
both ERISA and the traditional rights of the accused. It
allows an insurer to determine a crime has been
committed by the policy holder on minimal evidence
without any apportionment for meaningful review instead
of the substantial evidence required to show guilt beyond
a reasonable doubt in a criminal proceeding.
Unum was cunning in adopting a sweeping crime
exclusion without defining “crime”. Crime exclusions in
ERISA arose out of a string of claims for alcohol-related
deaths. Numerous insurers amended their Plans to
exclude coverage for drunk driving accidents, for
example:
Basic AD & D Benefits will only be paid for
losses caused by accidents. Benefits will
not be paid by the Plan if you or your
covered family members die or are
dismembered as a result of the following
circumstances:
9

• intoxication while operating a vehicle
or other device involved in an accident
River v. Edward D. Jones Co., 646 F.3d
1029, 1031 (8th Cir. 2011) (emphasis
added).
Insurers relied upon these exclusions to deny coverage
where evidence of intoxication appears in a toxicology
report. Id. (certified toxicology report stated that
Polk's blood alcohol content (BAC) was 0.128% at the
time of the crash). In River, the Plan defines intoxication:
Intoxicated means that the injured
person's blood alcohol level met or
exceeded the level that creates a legal
presumption of intoxication under the laws
of the jurisdiction in which the incident
occurred. Id. at 1032.
In sum, the plan contains an intoxication exclusion, a
definition of intoxication that tracks with the law of the
relevant jurisdiction, and a scientific method by which to
determine intoxication—a toxicology report. A toxicology
report clearly amounts to substantial evidence of
intoxication to support a plan administrator’s denial. The
exclusion puts the insured on notice that if they die in an
alcohol-related incident coverage will be excluded if a
toxicology report shows that they were intoxicated at the
time of their death according to the laws of the local
jurisdiction. Insureds would reasonably expect the same
proof to be presented by a prosecutor seeking to convict
them of a crime if they were pulled over while driving.
Unum’s crime exclusion does not do this. It provides
no notice to plan participants of what is or is not a “crime”,
how a crime will be determined, and require no
10

significant evidence of guilt on the part of the plan
participant. Plan participants like Mr. Boyer are left with
Unum’s general crime exclusion excluding a broad range
of undefined crimes or attempted crimes. Crime is not
defined and Unum does not tether the meaning of crime
to the laws of the jurisdiction where the events occur.
Rather, Unum defines crime on a case-by-case basis
using any source that benefits it while ignoring any that
does not exist. See, e.g., Harrison, 2005 WL 827090 at
*4 (where state-law definition of “crime” ignored by Unum
so it could deny coverage).
Unum’s crime exclusion leads to a litany of questions.
First, would an average plan participant understand that
traffic related incidents (apart from drunk driving) would
exclude coverage under the crime exclusion? Second,
to the extent a plan participant makes that leap, what
evidence of the crime is required to support a denial?
When the crime is speeding is a radar reading required?
If a radar reading isn’t necessary, is an accident
reconstruction required to determine the speed of the
deceased driver? Here, the only evidence relied upon
by Unum was a police report that did not contain a radar
reading or an accident reconstruction and did not attempt
to determine the actual speed at which Mr. Boyer was
driving.
The questions above illustrate fundamental issues
with Unum’s crime exclusion: Conviction of a crime
requires proof beyond a reasonable doubt. Here,
Unum’s only “proof” was an ambiguous police report—
hardly enough to charge Mr. Boyer, much less convict
him had he lived—and Unum provides no definition of
crime within the exclusion. Unum’s general crime
exclusion does not comply with the goals of ERISA to

11

protect plan participants or with a basic understanding of
fairness.
A reasonable plan participant (or anyone else not on
the payroll of an insurance company) would think a
single car accident should be covered under an
accidental death policy. Excluding single-car accidents
involving sober drivers, as Unum does here, would
“reduce ‘accident insurance’ to insurance only for
strange, unforeseeable injuries (e.g., choking to death
on a piece of meat) or for injuries in which the victim was
passive rather than active (being struck by lightning or
being run down by a reckless driver while crossing the
street).” King v. Hartford Life & Acc. Ins. Co., 414 F.3d
994, 1008 (8th Cir. 2005) (J. Bright, concurring). Further,
it allows Unum to haphazardly attach criminal culpability
(slandering the memory and name of a decedent policy
holder) based upon evidence that is “more than a scintilla
but less than a preponderance” Darvell v. Life Ins. Co. of
N. Am., 597 F.3d 929, 934 (8th Cir. 2010) (providing the
definition of “substantial evidence” in ERISA denial
decisions). Crimes require proof beyond a reasonable
doubt, and Unum’s definitions and actions here “convict”
Mr. Boyer of a “crime” without any significant evidence
and no true investigation.
Without this Court’s
intervention, Unum’s crime exclusions will grow
undermining the goals of ERISA and fundamental
fairness.
CONCLUSION
For the foregoing reasons, Petition Amber Boyer
respectfully requests the Court grant her Petition for Writ
of Certiorari.

12

Respectfully Submitted,
James E. Meadows,
J. Taylor White,
KUTAK ROCK LLP
300 S. John Q Hammons Parkway
Suite 800
Springfield, MO 65806-2550
Telephone: (417) 720-1410
Facsimile: (417) 720-1411
james.meadows@kutakrock.com
taylor.white@kutakrock.com

13

APPENDIX
United States Court of Appeals
For the Eighth Circuit
No. 19-3144
Amber Boyer,
Plaintiff Appellee,
v.
Schneider Electric Holdings, Inc.; Schneider Electric
Holdings, Inc. Life and
Accident Plan; Unum Life Insurance Company of
America,
DefendantsAppellants.
Appeal from United States District Court
for the Western District of Missouri - Joplin
Submitted: November 18, 2020
Filed: April 5, 2021
Before COLLOTON, ARNOLD, and KELLY, Circuit
Judges.

1A

COLLOTON, Circuit Judge.
After Eric Boyer died in a single-vehicle crash, his sister
Amber sought life and accidental death benefits under his
insurance plan. Unum Life Insurance Company of America
paid Amber life insurance benefits, but denied her claim for
accidental death benefits. Unum concluded that no benefits
were allowed because Boyer’s commission of a crime—
speeding and passing vehicles in a no-passing zone—
contributed to the crash. Amber disagreed and sued Unum
and two codefendants under the Employee Retirement
Income Security Act of 1974 (“ERISA”). See 29 U.S.C. §
1132(a)(1)(B). The district court ruled that Unum’s
interpretation of a “crime” exclusion in Boyer’s insurance
plan was unreasonable and granted summary judgment
for Amber. We reach a contrary conclusion, and therefore
reverse the judgment.
I.
Boyer died on January 22, 2016, after his vehicle ran
off a two-lane road in Missouri and struck a tree. He was
employed by Schneider Electric Holdings, Inc., and
enrolled in Schneider’s Life and Accident Plan. The Plan
is funded by an insurance policy issued by Unum, which
also serves as claims administrator with discretionary
authority to make benefit determinations. Amber is the
sole beneficiary of Boyer’s insurance plan. Schneider, on
Amber’s behalf, filed a claim for life and accidental death
benefits under the Plan.
The Plan insures against an “accidental bodily injury”
resulting in death. It defines “accidental bodily injury” as
“bodily harm caused solely by accidental means and not
contributed to by any other cause.” An exclusion from
coverage is at issue here. The Plan does not cover
accidental losses “caused by, contributed to by, or

2A

resulting from . . . an attempt to commit or commission
of a crime.”
Before reaching its decision to deny accidental death
benefits, Unum reviewed Boyer’s death certificate, a
police report from the crash scene, an autopsy report, and
a toxicology report. In its denial letter, Unum explained that
the police report showed that Boyer was passing vehicles
in a no-passing zone and driving approximately 80 miles
per hour in a 35 mile-per-hour zone. Unum observed that
improper passing and speeding are misdemeanors
punishable by jail time in Missouri, and concluded that
Amber could not recover accidental death benefits
because the loss occurred during Boyer’s commission of
a crime.
Amber filed an appeal with the claims administrator.
Elaborating on its earlier denial, Unum explained that
speeding and improper passing are crimes under
Missouri law and “under the dictionary definition of
‘crime.’” Even if the crimes were classified as violations
or infractions under Missouri law, the decision added,
“they would still be crimes” under Unum’s interpretation
of the Plan. The administrator concluded that because
Boyer’s death was “caused by, contributed to by, and/or
resulted from an attempt to commit or commission of a
crime,” Amber was not entitled to accidental death
benefits.
Amber sued, and the district court concluded that
Unum abused its discretion in applying the “crime”
exclusion, because “its determination was unreasonable
and not supported by substantial evidence.” Unum and
its co-defendants appeal, and we review the district
court’s ruling de novo. Engle v. Land O’Lakes, Inc., 936
F.3d 853, 855 (8th Cir. 2019).

3A

II.
The Plan grants Unum discretion to determine
eligibility for benefits, resolve factual disputes, and
interpret its provisions, so we review Unum’s denial of
benefits for abuse of discretion. We uphold an
administrator’s interpretation of a plan if it is reasonable.
Mitchell v. Blue Cross Blue Shield of N.D., 953 F.3d 529,
537 (8th Cir. 2020). We have identified a number of
factors that bear on the question of reasonableness: (1)
whether the interpretation is consistent with the goals of
the plan, (2) whether the interpretation renders any
language in the plan meaningless or internally
inconsistent, (3) whether the interpretation conflicts with
substantive or procedural requirements of the ERISA
statute, (4) whether the administrator has interpreted the
words at issue consistently, and (5) whether the
interpretation is contrary to the clear language of the
plan. Finley v. Special Agents Mut. Benefit Ass’n, Inc.,
957 F.2d 617, 621 (8th Cir. 1992).
By contrast, when an administrator evaluates facts to
determine the plan’s application to a particular case, we
review whether the administrator’s decision was
supported by “substantial evidence.” Mitchell, 953 F.3d
at 537. Substantial evidence need not amount to a
preponderance, but it must be sufficient to satisfy a
reasonable mind of the conclusion. See King v. Hartford
Life & Accident Ins. Co., 414 F.3d 994, 999 (8th Cir.
2005) (en banc).
Although Unum plays the dual role of evaluating
claims and paying benefits, any conflict of interest does
not alter the abuse-of-discretion standard of review.
Metro. Life Ins. Co. v. Glenn, 554 U.S. 105, 115-16
(2008). A conflict of interest may be a factor in the
review—a tie, for example, might be resolved against a
4A

conflicted administrator, id. at 117—but on this record,
the circumstance does not warrant great weight. On the
question of potential bias, Unum explained that the
company does not permit outcomes on claims decisions
to influence the company’s evaluation and compensation
of those who make the decisions, and Amber pointed to
no contrary evidence.
A.
Amber challenged the factual premise of the
administrator’s decision, and the district court concluded
that Unum lacked “any substantial evidence in support”
of its determination. The court concluded that Unum
acted without “any evidence” about the posted speed
limit or Boyer’s speed, and without evidence that
speeding and improper passing contributed to Boyer’s
death.
We have examined the record and conclude that the
administrator’s decision was supported by substantial
evidence. Unum relied largely on a police report that
included a diagram of the collision and five witness
statements. All five witnesses observed Boyer’s
westbound vehicle weaving into the eastbound lane of
traffic and attempting to pass several westbound
vehicles in a no-passing zone. The investigating officer
noted that the posted speed limit was 35 miles per hour,
and that the road was clearly marked as a “no passing
zone” with double solid yellow lines in the center.
One witness, an off-duty police sergeant, saw Boyer
driving approximately 80 miles per hour as he
approached the witness from behind. The administrator
noted that the sergeant was experienced in assessing
speed without radar. Two witnesses said that Boyer
eventually passed their vehicles; one said that Boyer
was traveling at “a high rate of speed.” All five saw Boyer
5A

run off the road and strike a tree. One reported that
Boyer’s vehicle “lost control and began to spin out of
control before striking a tree off of the roadway.” The
police report on the crash listed Boyer’s speed above the
posted limit and improper passing as “probable
contributing circumstances.” The evidence is sufficient to
support a reasonable finding that Boyer’s speeding and
improper passing contributed to the crash.
The district court also faulted Unum for failing
adequately to consider an investigator’s report noting icy
roads and the medical examiner’s determination that the
manner of Boyer’s death was an “accident.” Unum,
however, did address Amber’s contention that slush and
ice on the road caused Boyer’s car to spin out of control.
The administrator concluded that her contention was
“inconsistent with the statements of multiple
eyewitnesses” who observed Boyer driving at a high rate
of speed and attempting to pass. Road conditions do not
undermine the administrator’s conclusion that Boyer’s
illegal conduct at least “contributed to” the loss. The
medical examiner’s characterization of the crash as an
“accident” does not conflict with the decision. The crime
exclusion applies to “accidental losses.”
B.
The district court also accepted Amber’s contention
that Unum’s interpretation of the “crime” exclusion was
unreasonable. Unum disputes that conclusion, and argues
that the district court erred in setting aside its decision on
benefits. “[W]here plan fiduciaries have offered a
‘reasonable interpretation’ of disputed provisions, courts
may not replace [it] with an interpretation of their own—
and therefore cannot disturb as an ‘abuse of discretion’ the
challenged benefits determination.” King, 414 F.3d at 999
(quoting de Nobel v. Vitro Corp., 885 F.2d 1180, 1188 (4th
6A

Cir. 1989)). “An interpretation of a term is reasonable if the
interpretation conforms with ordinary meaning, which can
be derived from ‘the dictionary definition of the word and
the context in which it is used.’” Kutten v. Sun Life
Assurance Co. of Can., 759 F.3d 942, 945 (8th Cir. 2014)
(quoting Hutchins v. Champion Int’l Corp., 110 F.3d 1341,
1344 (8th Cir. 1997)).
Unum articulated two reasons why the Plan’s crime
exclusion applied to Boyer’s conduct. First, speeding and
improper passing are misdemeanors under Missouri law
and are punishable by jail time. Mo. Rev. Stat. §§
304.010, 304.016, 558.011. As such, Unum concluded,
“[s]peeding and violation of passing regulations are
crimes under Missouri law.” Second, speeding and
improper passing are “crimes under the dictionary
definition of ‘crime.’”
Amber maintains that Unum’s interpretation is contrary
to the clear language of the Plan, which excludes
coverage for accidental losses “contributed to by . . .
commission of a crime.” Common dictionaries, however,
support the reasonableness of Unum’s conclusion. Crime
is “[a]n act that the law makes punishable.” Black’s Law
Dictionary 451 (10th ed. 2014). A misdemeanor is “[a]
crime that is less serious than a felony.” Black’s Law
Dictionary 1150 (10th ed. 2014) (emphasis added). Lay
dictionaries are in accord as to the meaning of “crime.”
See American Heritage Dictionary of the English
Language 430 (5th ed. 2016) (“[a]nact committed in
violation of law where the consequence of conviction by
a court is punishment, especially where the punishment
is a serious one such as imprisonment”); Webster’s Third
New International Dictionary 536 (2002) (“the
commission of an act that is forbidden . . . by a public law
of a sovereign state to the injury of the public welfare and
7A

that makes the offender liable to punishment by that law
in a proceeding brought against him by the state”).
Boyer’s conduct constituted a crime under Missouri
law. Boyer was driving more than twice the legal speed
limit and passing vehicles in a no-passing zone on a twolane road in icy road conditions. This was not a de
minimis non-criminal “infraction” for exceeding the speed
limit by five miles per hour or fewer. Cf. Mo. Rev. Stat.
§§ 304.009.1, 556.021.1. An administrator is not bound
to incorporate a particular State’s criminal law in
fashioning its own definition of crime, for that approach
could lead to benefits varying by jurisdiction. But
Missouri’s classification of improper passing and
speeding as misdemeanor offenses reinforces the
reasonableness of Unum’s determination. Amber has
not established that Missouri law is an outlier on the
question whether Boyer was committing a crime at the
time of the crash.
The district court expressed concern that the term
“crime” does not encompass “traffic violations,” and that
Unum’s interpretation would allow the administrator to
deny coverage if an insured suffered an accident while
driving one mile per hour over a speed limit. Unum’s
decision here, however, did not dictate that every violation
of law in the area of “traffic” must be treated the same.
Boyer’s conduct of high-speed motoring and improper
passing was akin to reckless driving, and Unum
reasonably determined that he was committing a “crime.”
If an administrator were to extend the meaning of “crime”
to cover driving 56 miles per hour in a 55-mile-per-hour
zone, then there will be time enough to consider the
reasonableness of that position. It is not implicated here.
Amber also defends the district court’s conclusion
that defining crime to include Boyer’s conduct is
8A

inconsistent with the goal of the Plan to provide benefits
in the case of an insured’s accidental death. A plan that
provides accidental death benefits, however, need not
pursue that goal to the exclusion of all others. See Wald
v. Sw. Bell Corp. Customcare Med. Plan, 83 F.3d 1002,
1007 (8th Cir. 1996). The Plan at issue does not provide
coverage for accidental losses caused or contributed to
by commission of a crime. It thus tempers the goal of
providing accidental death benefits in order to preserve
assets for those who do not engage in criminal conduct.
A plan “need not draw down the assets contributed by
the provident many to shift the cost of self-destructive
behavior.” Sisters of the Third Ord. of St. Francis v.
SwedishAmerican Grp. Health Benefit Tr., 901 F.2d
1369, 1372 (7th Cir. 1990). Denying benefits to an
insured who commits a crime is not inconsistent with the
goals of the Plan.
Amber next argues that Unum’s interpretation of
“crime” renders the Plan meaningless, but that is not so.
An exclusion for speeding and improper passing does
not preclude an award of benefits when injury or death
results from any number of occurrences when the
insured does not commit a crime. Just in the area of auto
accidents, for example, consider an insured who hits a
deer in the highway, misses a curve on a dimly-lit road,
falls asleep at the wheel, or sustains injury when
impacted by a drunk or careless driver.
The district court thought it problematic that
Unum’s claims manual says the “crime” exclusion “was
not intended to apply to activities which would generally
be classified as traffic violations.” As the Tenth Circuit
observed, however, the manual “does not purport to be
definitive and has substantial play in the joints.” Caldwell
v. Unum Life Ins. Co. of Am., 786 F. App’x 816, 818 (10th
9A

Cir. 2019). The manual emphasizes that “[e]ach claim is
unique and should be evaluated on its own merits.” On
the “crime” exclusion, the guidance also says that the
exclusion was intended to apply to “an activity that would
typically be classified as a crime . . . under state or
federal law.” The document was not available to the
insured, so it could not have affected his reasonable
expectations. Even accepting the manual as evidence of
Unum’s intent, it does not remove Boyer’s conduct from
the “crime” exclusion. As discussed, Boyer’s speeding
and improper passing each were classified as a crime
under state law, and the manual is reasonably
understood to distinguish between driving offenses like
Boyer’s and minor traffic infractions that jurisdictions like
Missouri do not even classify as crimes.
Nor has Amber established that Unum applies the
crime exclusion inconsistently. She adverts to Harrison v.
Unum Life Ins. Co. of Am., No. CV-04-21-PB, 2005 WL
827090 (D.N.H. Apr. 11, 2005), where Unum applied a
crime exclusion to drunk driving that New Hampshire
classified as a “violation” rather than a “crime.” Id. at *1, 3.
Since Unum relied here on the fact that Boyer’s conduct
was criminal in Missouri, Amber perceives an
inconsistency. But in both Harrison and here, Unum relied
on the ordinary dictionary meaning of “crime” in applying
the exclusion to a violation of law. Breadth of application
does not establish inconsistency.
Amber argues finally that Unum’s interpretation
conflicts with the substantive and procedural requirements
of ERISA. Summary plan descriptions must “be written in
a manner calculated to be understood by the average plan
participant.” 29 U.S.C. § 1022(a). They also must contain
information about “circumstances which may result in
disqualification, ineligibility, or denial or loss of benefits.”
10A

Id. § 1022(b). Amber observes that Unum’s summary
does not mention traffic violations, and argues that it does
not place an average participant on fair notice that the
crime exclusion encompasses speeding and improper
passing. But there is nothing inherent in the word “crime”
that would lead an average participant to believe that
violations of law like Boyer’s are not contemplated,
especially where state law criminalizes the conduct. The
administrator’s decision does not conflict with the
statute.
* * *
For these reasons, the judgment of the district court
is reversed, and the case is remanded with directions to
enter judgment for the defendants.

11A

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
SOUTHWEST DIVISION
AMBER BOYER,
Plaintiff,
v.

Case No. 3:17-cv-5053-SRB

SCHNEIDER ELECTRIC HOLDINGS, INC.
LIFE AND ACCIDENT PLAN,
SCHNEIDER ELECTRIC HOLDINGS, INC.,
and UNUM LIFE INSURANCE COMPANY
OF AMERICA,
Defendants.
ORDER
Before the Court are Plaintiff’s Motion for
Summary Judgment (Doc. #38) and Defendants’ Motion
for Summary Judgment (Doc. #40). For the following
reasons Plaintiff’s Motion is GRANTED IN PART and
Defendants’ Motion is DENIED. The case is remanded
to Unum for further consideration.
I.

Background
This case arises out of the denial of a claim for
accidental death benefits following a single-car
accident and subsequent death of the insured, Eric
Boyer. Plaintiff, the sole beneficiary of Mr. Boyer’s
accidental death policy, alleges Defendants denied her
claim for accidental death benefits because they
determined Mr. Boyer’s death was not an accident and
Mr. Boyer died during the commission of crimes.

12A

Mr. Boyer was employed by Schneider Electric
Holdings, Inc. (“Schneider”) and participated in a Life
and Accident Plan (“the Plan”) sponsored and
administered by Schneider. (Doc. #43, p. 2). The Plan is
an employee welfare benefit plan governed by the
Employee Retirement Income Security Act (“ERISA”),
29 U.S.C. §§ 1001 et seq. Unum Life Insurance
Company of America (“Unum”) insures the benefits
available under the Plan through a group insurance
policy (“the Policy”). (Doc. #44, p. 2). The Policy grants
Unum “discretionary authority to make benefit
determinations under the Plan.” (Doc. #43, p. 3). Mr.
Boyer possessed $67,000 in basic life insurance
coverage, which was paid to Plaintiff upon Mr. Boyer’s
death. Mr. Boyer also possessed $464,000 in total
accidental death coverage that was not paid to Plaintiff
and is at issue in this case. (Doc. #44, p. 3).
On January 22, 2016, Mr. Boyer died in a singlecar accident in St. Louis County, Missouri, after his
vehicle ran off the roadway and struck a tree. On April
7, 2016, Schneider filed a claim for life and accidental
death benefits under the Plan on behalf of Plaintiff. (Doc.
#44, p. 3). On April 11, 2016, Unum advised Plaintiff it
would pay life benefits, but that it needed further
information to determine whether it would pay
accidental death benefits. (Doc. #43, p. 4). Upon
reviewing Mr. Boyer’s death certificate, the police report,
the autopsy report, and the toxicology laboratory report,
Unum denied Plaintiff’s claim for accidental death
benefits. (Doc. #44, pp. 3–4).
The police report cited “Speed-Exceeded Limit”
and “Improper Passing” as “probable contributing
circumstances” to Mr. Boyer’s death. (Doc. #44, p. 4).
Several witnesses reported Mr. Boyer was traveling
13A

westbound on Centaur Road at a high rate of speed as
he entered the eastbound lane of traffic in a “No Passing
Zone” to pass several vehicles when his vehicle ran off
the roadway and struck a tree. (Doc. #43, pp. 4–5). The
report also noted the speed limit at the site of the
accident was either 25 or 35 miles per hour. (Doc. #43,
pp. 5, 8). One witness, an off-duty police officer who
observed Mr. Boyer approaching in his rear view mirror,
stated he believed Mr. Boyer’s vehicle was traveling
approximately 80 miles per hour. (Doc. #43, p. 5). There
was no radar or other machine reading of the speed of
Mr. Boyer’s vehicle. (Doc. #43, pp. 4–5).
The medical examiner’s report listed the manner
of death as an accident caused by blunt craniocerebral
and thoracic trauma. (Doc. #44, p. 3). A medicolegal
investigator who investigated the scene of the car
accident noted the road conditions were “somewhat
slushy/icy with dry areas.” (Doc. #44, p. 4). The
toxicology laboratory report demonstrated there was no
trace of drugs or alcohol in Mr. Boyer’s system at the time
of the car accident. (Doc. #44, p. 5).
In a letter to Plaintiff dated June 10, 2016, Unum
denied the accidental death benefits claim based on (1)
its conclusion that Mr. Boyer’s death was not an
“accidental bodily injury” under the Plan and (2) the
“crime exclusion” in Mr. Boyer’s plan that excludes
coverage for “accidental losses caused by, contributed to
by, or resulting from: . . . an attempt to commit or
commission of a crime.” (Doc. #44, p. 5). Specifically,
Unum stated in the denial letter:
Information from the police report indicates
that your brother was passing vehicles in a
no passing zone. In addition, according to
14A

a witness statement, he was driving
approximately 80 miles per hour with the
posted speed limit being 35 miles per hour.
The speed at which he was driving, and
passing other vehicles in a no passing
zone, contributed to his motor vehicle
accident, and in turn his death.
(Doc. #43, p. 6). Unum further stated that such traffic
violations are considered misdemeanors under Mo.
Rev. Stat. §§ 304.010 and 304.016. (Doc. #43, p. 7).
Notably, Unum’s internal policy manual states that
“‘Attempt to commit’ or ‘commission’ policy language
was intended to exclude disabilities/losses which result
from an activity that would typically be classified as a
crime (or felony, depending on policy language) . . .
[and] was not intended to apply to activities which would
generally be classified as traffic violations.” (Doc. #44,
p. 7).
On July 1, 2016, Plaintiff appealed the denial and
on July 8, 2016, Unum issued a second letter denying
accidental death coverage. (Doc. #44, p. 5). On April 11,
2017, through counsel, Plaintiff again requested Unum
reconsider its decision. (Doc. #44, p. 6). Unum
responded by letter, informing Plaintiff the appeal
process was complete and reaffirming its decision to
deny coverage. (Doc. #44, p. 6). Plaintiff then brought
this claim for “benefits due” under ERISA § 502(a)(1)(B),
29 U.S.C. § 1132(a)(1)(B).3
II.
Legal Standard
3

Additionally, Plaintiff pled common law breach of contract in her
Complaint (Doc. #1, p. 6). Defendants argue an ERISA “benefits
due” claim preempts the breach of contract claim. Plaintiff did not
challenge or otherwise respond to Defendants’ preemption
argument. Accordingly, the Court finds Plaintiff has abandoned the
breach of contract claim.

15A

A. Summary Judgment
A moving party is entitled to summary judgment
on a claim “if the movant shows that there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). Material facts are those “that might affect the
outcome of the suit under the governing law,” and a
genuine dispute over a material fact is one “such that
a reasonable jury could return a verdict for the
nonmoving party.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). The facts and inferences are
viewed in the light most favorable to the nonmoving
party. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986).
“Once the moving party has made and supported
their motion, the nonmoving party must proffer
admissible evidence demonstrating a genuine dispute
as to a material fact.” Holden v. Hirner, 663 F.3d 336,
340 (8th Cir. 2011) (citation omitted). A party opposing
summary judgment “may not rest upon mere allegation
or denials of his pleading, but must set forth specific
facts showing that there is a genuine issue for trial.”
Anderson, 477 U.S. at 256. “Mere allegations,
unsupported by specific facts or evidence beyond the
nonmoving party’s own conclusions, are insufficient to
withstand a motion for summary judgment.” Thomas v.
Corwin, 483 F.3d 516, 526–27 (8th Cir. 2007) (citation
omitted). Summary judgment should not be granted if a
reasonable jury could find for the nonmoving party.
Woodsmith Publ’g Co. v. Meredith Corp., 904 F.2d
1244, 1247 (8th Cir. 1990) (citing Anderson, 477 U.S. at
248). When the Court analyzes cross-motions for
summary judgment, each motion must be evaluated on
its own merits. Fox v. Transam Leasing, Inc., 830 F.3d
16A

1209, 1213 (10th Cir. 2016). “The denial of one does not
require the grant of another.” Christian Heritage
Academy v. Oklahoma Secondary School Acitivites
Ass’n, 483 F.3d 1025, 1030 (10th Cir. 2007). Both
Plaintiff and Defendants in the instant case agree that
there is no genuine dispute over any material fact.
Further, both parties agree that because only a question
of law remains to be resolved, i.e., whether Unum’s
decision to deny Plaintiff accidental death benefits was
unreasonable, the case should be decided on summary
judgment. (Doc. #39, p. 8; Doc. #44, p. 1).
B. ERISA “Benefits Due” Claim
Where a plan administrator has “discretionary
authority to determine eligibility for benefits or to
construe the terms of the plan,” the court reviews the
administrator’s decision for abuse of discretion.
Barnhart v. Unum Life Ins. Co. of Am., 179 F.3d 583,
587 (8th Cir. 1999). Under the abuse of discretion
standard, a plan administrator’s determination must be
upheld unless the determination was unreasonable.
King v. Hartford Life & Accident Ins. Co., 414 F.3d 994,
999 (8th Cir. 2005) (en banc). Additionally, “a plan
administrator’s decision is an abuse of discretion if it is
not supported by substantial evidence.” McClelland v.
Life Ins. Co. of N. Am., 679 F.3d 755, 759 (8th Cir.
2012). Where the same entity both insures the plan and
makes benefits determinations, the court gives that
conflict of interest some weight in the abuse of discretion
analysis. Id.
III.
Discussion
Plaintiff contends Unum’s interpretation of the
Policy’s language is an abuse of
discretion because it was unreasonable to apply the
crime exclusion in light of Unum’s internal policy that
17A

traffic violations are not typically classified as crimes
and for Unum to determine that Mr. Boyer’s death was
not an accidental bodily injury. Plaintiff further argues
such determination was not supported by substantial
evidence. Defendants argue Unum’s decision to apply
the crime exclusion was reasonable and based on
substantial evidence. Defendants also contend that if
the Court finds Unum erroneously applied the crime
exclusion, the Court should remand the case for further
consideration of whether Mr. Boyer’s death was
accidental under the Plan.
A. Crime Exclusion
1. Reasonableness
“[W]here plan fiduciaries have offered a
reasonable interpretation of disputed provisions, courts
may not replace it with an interpretation of their own. . .
.” Manning v. Am. Republic Ins. Co., 604 F.3d 1030,
1042 (8th Cir. 2010). The Eighth Circuit outlined five
factors in Finley v. Special Agents Mut. Ben. Ass’n, Inc.
to aid in determining whether a denial of benefits is
reasonable. 957 F.2d 617, 621 (8th Cir. 1992). “Whether
a plan administrator’s decision to deny benefits is
reasonable requires consideration” of the Finley factors.
Smith v. United Television, Inc. Special Severance Plan,
474 F.3d 1033, 1036 (8th Cir. 2007). Those factors are:
(1) whether the interpretation is consistent
with the goals of the plan;
(2) whether it renders any
language in the plan
meaningless or internally
inconsistent;

18A

(3) whether it conflicts with the
substantive or procedural
requirements of ERISA;
(0) whether [Unum] has interpreted
the provisions at issue here
consistently; and
(1) whether the interpretation is contrary to
the clear language of the plan.
McClelland, 679 F.3d at 759 (citing Finley, 957 F.2d at
621).
a. Finley Factor 1 –
Consistency with Goals
The first Finley factor asks whether the plan
administrator’s “interpretation is consistent with the
goals of the Plan.” Finley, 957 F.2d at 621. Plaintiff
argues that Unum’s interpretation of the crime
exclusion as including speeding and improper passing
is not consistent with the goals of the Plan, which,
according to Plaintiff, are to provide coverage for
accidents and “protect[] the interests of plan
beneficiaries . . . .” Nichols v. Unicare Life & Health Ins.
Co., 739 F.3d 1176, 1184 n.4 (8th Cir. 2014).
Defendants contend Unum’s interpretation is
consistent with its goals of excluding accidents caused
by the commission of or attempt to commit a crime in
order to shift the costs of “self-destructive” behavior.
The Court finds Unum’s interpretation of the
crime exclusion is inconsistent with the goals of the
Plan. The primary goal of the Plan, and specifically
accidental death coverage, is to provide benefits in the
case of the insured’s accidental death. To apply the
crime exclusion to traffic violations is inconsistent with
this goal and with the overall goal of ERISA under §
1001 of protecting the interests of plan beneficiaries,
19A

particularly when crimes are not defined under the Plan
and Unum’s own policy instructs that the crime
exclusion was not intended to apply to traffic violations.
Further, while Defendants contend the inclusion of a
crime exclusion in an accidental death plan serves to
shift the costs of self-destructive behavior, here, as
discussed below, substantial evidence is lacking to
show that Mr. Boyer was committing a crime. Without
substantial evidence supporting this conclusion, it
cannot be reasonably argued that treating Mr. Boyer’s
death as resulting from the commission of a crime is
consistent with Defendants’ proffered goal.
b. Finley Factor 2 – Renders
Any Language Meaningless
The second Finley factor tests whether the
insurer’s “interpretation renders any language in the
Plan meaningless or internally inconsistent.” Finley, 957
F.2d at 621. Plaintiff argues Unum’s interpretation of the
crime exclusion creates a blanket exclusion rendering
the entire accidental death policy meaningless because
it allows denial of coverage for a car accident under an
accidental death policy. Plaintiff contends “by excluding
something as trivial as speeding or passing in a no
passing zone in a ‘crime exclusion’ Unum undermines
the very title of the Policy—Accidental Death and
Disability.” (Doc. #47, p. 7). Defendants argue Unum’s
interpretation does not render any language
meaningless because the Plan would still cover car
accidents not caused by crimes, such as one involving
the innocent victim of a two-vehicle car crash.
The Court finds Unum’s determination in Mr.
Boyer’s case unreasonably limits coverage for accidents
by including traffic violations in its interpretation of crime.
Such a far-reaching construction of the “crime” exclusion
20A

is inconsistent with Unum’s own internal claims manual.
The claims manual instructs: “When administering a
crime exclusion . . . ‘Attempt to commit’ or ‘commission’
policy
language
was
intended
to
exclude
disabilities/losses which result from an activity that would
typically be classified as a crime (or felony, depending
on policy language) under state or federal law” and “was
not intended to apply to activities which would generally
be classified as traffic violations.” (Doc. #39-1, p. 1). By
interpreting speeding and passing in a no passing zone
as crimes, Unum disregarded its own policy directing
that traffic violations are not to be construed as crimes,
rendering the claims manual language meaningless.
c. Finley Factor 3 – Conflict with the
Substantive or Procedural Requirements
The third Finley factor examines whether an
insurer’s “interpretation conflicts with the substantive or
procedural requirements of ERISA.” Finley, 957 F.2d at
621. Plaintiff argues Unum’s interpretation conflicts with
the substantive requirements of ERISA, which require
the plan to be “written in a manner calculated to be
understood by the average plan participant,” 29 U.S.C.
§ 1022(a), because a reasonable person would not
consider speeding and improper passing to be crimes.
Plaintiff states that while Unum did not define “crime” in
the language of the Policy and has accordingly taken
the liberty of defining it broadly in this instance, the
average plan participant would consider crimes to be
serious violations of the law. Plaintiff also notes that in
its initial denial letter Unum stated, “Even if the crimes
were classified as violations or infractions . . . they would
still be crimes.” (Doc. #43, p. 14). Plaintiff contends this
interpretation “reduces ‘accident insurance’ to insurance
only for strange, unforeseeable injuries or for injuries in
21A

which the victim was passive rather than active,” which
is contrary to a reasonable policyholder’s interpretation.
King, 414 F.3d at 1008.
Defendants argue Unum’s interpretation poses
no conflict with ERISA requirements. They argue the
point of the § 1022(a) requirement is to ensure the plan
administrator does not “rely on some exotic definition
outside the realm of reasonable.” (Doc. #48, p. 11).
Defendants state Unum relied on an ordinary dictionary
definition of crime and, therefore, its interpretation did
not conflict with ERISA. Defendants also refute
Plaintiff’s position that including infractions in the
definition of “crime” would undermine the purpose of
accident insurance, arguing that a number of accidents,
such as those in which a driver was not committing a
crime, would not be susceptible to the crime
exclusion.The Court finds Unum’s interpretation of the
Plan conflicts with the requirements of ERISA.
Interpreting the crime exclusion to include traffic
violations conflicts with the requirements of § 1022(a).
Defendants failed to define crimes under the Plan, and
it is unreasonable to believe the average plan
participant could anticipate Unum would construe the
concept of crime in such a broad manner as to include
traffic violations. Further, as the Court discussed in its
analysis of the third Finley factor, including speeding
and passing in a no passing zone as crimes under the
crime exclusion unreasonably limits accidental death
coverage, which is contrary to a reasonable
policyholder’s understanding and in conflict with
§1022(a). The Court also finds Unum’s interpretation
conflicts with §1022(b), which requires that the plan
description contain “circumstances which may result in
disqualification, ineligibility, or denial or loss of
22A

benefits.” The Plan does not state that traffic violations
will result in denial of or ineligibility for benefits. To the
contrary, Unum’s internal claims manual states the
opposite: that the crime exclusion was not intended to
apply to traffic violations. Therefore, Unum’s
interpretation of the crime exclusion conflicts with
ERISA requirements under § 1022(a)–(b).
d. Finley Factor 4 –
Interpret Provisions
Consistently
The fourth factor under Finley asks whether the
plan administrator has interpreted the provisions at issue
consistently. Finley, 957 F.2d at 621. Plaintiff argues
Unum’s application of the crime exclusion is inconsistent
with its internal claims manual, which instructs that the
crime exclusion “was not intended to apply to activities
which would generally be classified as traffic violations.”
(Doc. #39, p. 22). Defendants argue Unum did not depart
from its policy by applying it to Mr. Boyer’s case. Even
still, Defendants cite Heimeshoff v. Hartford Life & Accid.
Ins. Co., 571 U.S. 99, 108 (2013), for the proposition that
the claims manual, which contains such language, is not
a legally binding document and does not override the
Plan language.However, Heimeshoff addressed the
enforceability of Plan language providing a 3-year
statute of limitations, and did not involve a crime
exclusion or a claims manual of any sort.
Defendants further argue Unum has consistently
applied the crime exclusion. In support of this assertion,
Defendants cite Oomrigar v. Unum Life Ins. Co. of Am.,
No. 16-cv-940, 2017 WL 3913277 (D. Utah Sept. 6,
2017) and Caldwell v. Unum Life Ins. Co. of Am., 271 F.
Supp. 3d 1252 (D. Wyo. 2017), appeal docketed, No.
17-8078 (10th Cir. Oct. 19, 2017). In both cases the
23A

court upheld Unum’s decision to apply the crime
exclusion and deny accidental death benefits. Oomrigar
involved a policy holder who was speeding and evading
the police when his motorcycle crashed and he died.
2017 WL 3913277, at *1. Unum applied the crime
exclusion after an investigation in which Unum phoned
a sergeant who was at the scene of the accident,
attempted to contact the sergeant who was in pursuit of
Oomrigar leading up to the accident, and spoke with a
representative of the county attorney’s office, who
advised that Oomrigar would have been charged for
reckless driving and evading the police if he had
survived the accident. Id. at *4. In Caldwell, a policy
holder was speeding when he lost control of his vehicle
and, as a result, was ejected from the vehicle and died.
271 F. Supp. 3d at 1255–56. Unum applied the crime
exclusion and supported its decision by relying on a
highway patrol trooper’s report he produced after an
investigation. Id. In the report, the trooper detailed his
forensic mapping of the scene, including an analysis of
tire marks, to determine the exact speed the decedent’s
car was traveling at the time it crashed. Id.
The Court finds Unum’s application of the crime
exclusion here is inconsistent with its own internal
claims manual, which states the exclusion “was not
intended to apply to activities which would generally be
classified as traffic violations.” (Doc. #44, p. 7). Unum
has presented no substantial evidence establishing Mr.
Boyer’s actions were consistent with criminal behavior
rather than traffic violations. Moreover, Unum’s
argument that its interpretation here is consistent with
prior interpretations in Oomrigar and Caldwell is
inaccurate. As detailed above, in both of those cases,
Unum relied on substantial evidence resulting from
24A

thorough and detailed investigations in making its
decision to apply the crime exclusion. To the contrary,
in this case, Unum declined to investigate and instead
decided to deny accidental death benefits based on
witness statements and “probable contributing
circumstances” listed in the police report. Therefore,
Unum has not interpreted the crime exclusion
consistently.
e. Finley Factor 5 –
Contrary to Clear
Language
The fifth Finley factor examines whether the
insurer’s “interpretation is contrary to the clear language
of the Plan.” Finley, 957 F.2d at 621. Plaintiff argues
Unum’s interpretation is contrary to the plain language of
the Plan in that the crime exclusion as written does not
include traffic violations. Defendants argue Unum’s
interpretation is consistent with the plain language of the
Plan because speeding and passing in a no passing
zone are misdemeanors under Missouri law and
because misdemeanors are considered crimes
according to the dictionary.
The Court finds Unum’s interpretation of the
crime exclusion is contrary to the plain language of the
Plan. The crime exclusion in Mr. Boyer’s plan excludes
coverage for “accidental losses caused by, contributed
to by, or resulting from: . . . an attempt to commit or
commission of a crime.” This language does not
demonstrate an exclusion of coverage for accidents
resulting from the insured’s traffic violations. To allow
Defendants’ construction to stand would allow Unum to
deny coverage every time a plaintiff was caught
speeding even one mile per hour over the speed limit.

25A

To construe the crime exclusion to include such
violations is contrary to the plain language of the Plan.
2. Substantial Evidence
“A plan administrator’s decision is an abuse of
discretion if it is not supported by substantial evidence.”
McClelland, 679 F.3d at 759. Substantial evidence is
“such relevant evidence as a reasonable mind might
accept as adequate to support a conclusion.” King, 414
F.3d at 999. The court cannot “substitute its own
weighing of evidence for that of the [administrator].”
Cash v. Wal-Mart Group Health Plan, 107 F.3d 637, 641
(8th Cir. 1997).
Plaintiff emphasizes that Unum did not attempt to
investigate by actually interviewing witnesses or to
otherwise determine what speed limit applied to the
stretch of road on which Mr. Boyer’s crash occurred or
at what speed Mr. Boyer’s car was actually traveling at
the time of the accident. Plaintiff states there was no
accident reconstruction done to prove that speeding or
improper passing contributed to Mr. Boyer’s death and
that there is no substantial evidence to conclude that
the area was in fact a no passing zone. Plaintiff cites
Glenn v. Metlife for the proposition that failure to
consider meaningful evidence and undertake a
thorough investigation renders a benefits denial an
abuse of discretion. 461 F.3d 660 (6th Cir. 2006).
Plaintiff argues Unum chose to make its decision to
deny coverage by giving significant weight to witness
statements and minimizing consideration of evidence
such as the medicolegal investigator’s report noting icy
roads and the medical examiner’s determination that
the manner of death was an accident. Plaintiff further
argues Unum failed to inquire with relevant authorities
as to whether charges would have been filed against
26A

Mr. Boyer and failed to speak to any witnesses,
investigators, or reporting officers. Plaintiff states that
Unum failed to conduct a meaningful investigation and
instead opted to rely on a file review, which should be
considered in assessing whether the decision to deny
coverage was reasonable. Id. at 671.
Defendants claim substantial evidence, including
the police report and autopsy report, supports Unum’s
decision. They argue Unum did not need to investigate
because the police report already captured the police
officer’s and witnesses’ thoughts. Defendants further
state Plaintiff has not cited any authority about the extent
of investigation required before applying the crime
exclusion and argue, “District courts do not second
guess the investigation”; rather, they “only review . . . the
evidence in front of Unum and determine if substantial
evidence supports the decision.” (Doc. #48, pp. 13–14).
The Court finds Unum’s interpretation of the
Plan was not supported by substantial evidence. It is
unreasonable to define an insured’s behavior as
criminal based solely on witness statements and
“probable contributing circumstances” contained within
a police report. The police report contained no detailed
analysis of the scene of the accident and no
independent police investigation findings. Unum
applied the crime exclusion to this claim without any
evidence of the posted speed limit at the location of the
car accident, of what speed Mr. Boyer’s car was
traveling, or that speed or improper passing in fact
caused or contributed to causing Mr. Boyer’s death.
Unum also failed to meaningfully consider the
medicolegal investigator’s report noting icy roads and
the medical examiner’s determination that the manner
of death was an accident.
27A

Without substantial evidence available upon
which Unum could rely, Unum arbitrarily concluded Mr.
Boyer’s conduct and cause of death was criminal in
nature. Unum forewent any meaningful investigation or
attempt to contact the reporting officers, investigators,
prosecutors, or any authority whatsoever to obtain any
substantial evidence regarding the circumstances
surrounding Mr. Boyer’s death. Unum did not contact a
single witness in the claim review process. Instead,
Unum relied on a file containing unsubstantiated and
speculative information. Accordingly, Unum abused its
discretion by concluding Mr. Boyer’s car accident was
caused by his own criminal activity without any
substantial evidence in support.
In sum, the Court finds Unum abused its
discretion in denying accidental death benefits based
on the Plan’s crime exclusion in that its determination
was unreasonable under the Finley factors and not
supported by substantial evidence.
B. Accident
Plaintiff argues Unum used the incorrect
standard in determining Mr. Boyer’s death was not an
accident under the Plan. Plaintiff contends that to
determine whether an occurrence was an accident, an
insurer must apply the framework established in
Wickman v. Northwestern Nat’l Ins. Co., 908 F.2d 1077
(1st Cir. 1990), discussed extensively in King, 414 F.3d.
Under Wickman, Unum must consider whether “a
reasonable person . . . would have viewed the injury as
highly likely to occur as a result of the insured’s
intentional conduct.” Id. at 997 (emphasis added).
Plaintiff states and Defendants concede Unum applied
a “reasonably foreseeable” standard in determining
that Mr. Boyer’s death was not accidental. Both parties
28A

acknowledge that in King, an insurer also applied the
“reasonably foreseeable” standard in determining
whether a beneficiary was entitled to accidental death
benefits and the Eighth Circuit remanded the case to
the insurer to apply the Wickman standard. (Doc. #44,
p. 20; Doc. #39, p. 15) (citing King, 414 F.3d at 1002–
1006).
Under Wickman, “an event is an accident if the
decedent did not subjectively expect to suffer ‘an injury
similar in type or kind to that suffered’ and the
suppositions underlying that expectation were
reasonable.” Nichols, 739 F.3d at 1182 (quoting
Wickman, 908. F.2d at 1088). The determination of
whether the suppositions were reasonable “should be
made from the perspective of the insured, allowing the
insured a great deal of latitude and taking into account
the
insured’s
personal
characteristics
and
experiences.” Id. If the decedent’s subjective
expectation cannot be determined, the inquiry is
whether “a reasonable person, with background and
characteristics similar to the insured, would have
viewed the injury as highly likely to occur as a result of
the insured’s intentional conduct.” Id.
As Defendants argue, the Court finds the proper
remedy under King is to return the case to Unum for
reconsideration of the “accident” determination under
the Wickman standard so the Court may conduct a
proper review. In King, the Eighth Circuit noted that “by
asserting that the Wickman test of ‘highly likely to
occur,’ rather than a ‘reasonably foreseeable’ standard,
should govern whether [plaintiff] is entitled to
‘accidental death benefits’ under the plan, [the insurer]
effectively concedes that it applied the wrong definition
of ‘accidental’ in denying the claim.” King, 414 F.3d at
29A

1005. The Court then held that “the proper remedy is to
return the case to the administrator for reevaluation of
the claim under what [the insurer] says is the correct
standard.” Id. The Court emphasized that under ERISA,
the courts have “a range of remedial powers,” which
often includes remanding a case back to the plan
administrator for further consideration. Id. Like the
insurer in King, Unum conceded that it employed the
“reasonably foreseeable” standard in denying
accidental death benefits and urges the Court to
remand the case so that it can apply the Wickman
standard. Accordingly, this Court finds the proper
remedy under King is to return the case to Unum for
reconsideration of the “accident” determination under
the Wickman framework.
C. Attorney’s Fees
Plaintiff argues she is entitled to attorney’s fees
under ERISA § 502(g), 29 U.S.C. § 1132(g).
Defendants assert a request for attorney’s fees is not
ripe pre-judgment under Federal Rule of Civil
Procedure 54(d). Under ERISA, “a fees claimant must
show ‘some degree of success on the merits’ before a
court may award attorney’s fees under §1132(g)(1).”
Hardt v. Reliance Standard Life Ins. Co., 560 U.S. 242,
255 (2010) (quoting Ruckelshaus v. Sierra Club, 463
U.S. 680, 694 (1983)). “Achieving ‘trivial success on
the merits’ or a ‘purely procedural victor[y]’” is not
enough. Id. (quoting Ruckelshaus, 463 U.S. at 688).
The test is satisfied “if the court can fairly call the
outcome of the litigation some success on the merits
without conducting a ‘lengthy inquir[y] into the question
whether a particular party’s success was substantial or
occurred on a central issue.’” Id. (internal quotations
omitted).
30A

The Court finds Plaintiff’s argument that she is
entitled to attorney’s fees assumes the Court agrees
with her position that she is “entitled to her full
payment of the accidental death benefits[.]” (Doc. #39,
p. 27). The Court does not find in Plaintiff’s favor on
this point, but instead remands for further
consideration by Unum. Accordingly, Plaintiff’s
request for attorney’s fees is denied without prejudice.
Given that this Order grants Plaintiff’s Motion for
Summary Judgment on the issue of the “crime
exclusion” and remands the case to Unum for proper
analysis of the “accident” issue, Plaintiff may move for
attorney’s fees after Unum decides the “accident”
issue under the Wickman framework.
IV. Conclusion
The Court finds Unum abused its discretion in
denying Plaintiff accidental death benefits based on the
Plan’s crime exclusion in that its determination was
unreasonable and not supported by substantial
evidence. Accordingly, Plaintiff’s Motion for Summary
Judgment (Doc. #38) is GRANTED IN PART and
Defendants’ Motion for Summary Judgment (Doc. #40)
is DENIED. The Court remands the case to Unum for
further consideration of the “accident” determination
under the Wickman standard.
ORDERED that Unum reconsider its determination that
Mr. Boyer’s car accident was not an “accident” under the
Wickman standard and file a joint status report within 30
days.

IT IS SO ORDERED.

31A

/s/ Stephen R. Bough
STEPHEN R. BOUGH
UNITED STATES DISTRICT JUDGE
Dated: October 10, 2018

32A

IN THE UNITED STATES DISTRICT COURT FOR
THE
WESTERN DISTRICT OF MISSOURI
SOUTHWESTERN DIVISION
AMBER BOYER,
Plaintiff,
v.
Case No. 3:17-cv-05053-SRB
SCHNEIDER ELECTRIC HOLDINGS, INC.
LIFE AND ACCIDENT PLAN,
SCHNEIDER ELECTRIC HOLDINGS, INC.,
and UNUM LIFE INSURANCE COMPANY
OF AMERICA,
Defendants.
ORDER
Before the Court are Plaintiff’s Second Motion for
Summary Judgment (Doc. #59) and Defendants’ Second
Motion for Summary Judgment (Doc. #61). For the
following reasons Plaintiff’s Motion is GRANTED IN
PART and DENIED IN PART and Defendants’ Motion is
DENIED.
I.
Background
Eric Boyer was employed by Schneider Electric
Holdings, Inc. (“Schneider”) and participated in a Life and
Accident Plan (“the Plan”) sponsored and administered
by Schneider. (Doc. #43, p. 2). The Plan is an employee
welfare benefit plan governed by the Employee
Retirement Income Security Act (“ERISA”), 29 U.S.C. §§
33A

1001 et seq. Unum Life Insurance Company of America
(“Unum”) insures the benefits available under the Plan
through a group insurance policy (“the Policy”). The
Policy grants Unum “discretionary authority to make
benefit determinations under the Plan.” Mr. Boyer
possessed $67,000 in basic life insurance coverage,
which was paid to Plaintiff, the sole beneficiary of Mr.
Boyer’s life and accidental death policy, upon Mr. Boyer’s
death. Mr. Boyer also possessed $464,000 in total
accidental death coverage that was not paid to Plaintiff
and is at issue in this case.
On January 22, 2016, Mr. Boyer died in a singlecar accident in St. Louis County, Missouri, after his
vehicle ran off the roadway and struck a tree. Schneider
filed a claim for life and accidental death benefits under
the Plan on behalf of Plaintiff. Upon reviewing Mr.
Boyer’s death certificate, the police report, the autopsy
report, and the toxicology laboratory report, Unum
denied Plaintiff’s claim for accidental death benefits.
Unum based its denial on (1) its conclusion that Mr.
Boyer’s death was not an “accidental bodily injury” under
the Plan and (2) the “crime exclusion” in Mr. Boyer’s plan
that excludes coverage for “accidental losses caused by,
contributed to by, or resulting from: . . . an attempt to
commit or commission of a crime.” (Doc. #44, p. 5).
Specifically, Unum stated in the denial letter:
Information from the police report indicates
that your brother was passing vehicles in a
no passing zone. In addition, according to
a witness statement, he was driving
approximately 80 miles per hour with the
posted speed limit being 35 miles per hour.
The speed at which he was driving, and
34A

passing other vehicles in a no passing
zone, contributed to his motor vehicle
accident, and in turn his death.
(Doc. #43, p. 6).
Plaintiff exhausted Unum’s appeal process to no
avail. After Unum denied Plaintiff’s appeals, Plaintiff
brought a claim for “benefits due” under ERISA §
502(a)(1)(B), 29 U.S.C. § 1132(a)(1)(B).4 The parties
filed cross motions for summary judgment. The Court
found that Unum abused its discretion in denying
accidental death benefits based on the crime exclusion
in that its determination was unreasonable and not
supported by substantial evidence. The Court also found
Unum used the incorrect standard in determining Mr.
Boyer’s death was not an accident under the Plan, and
remanded the case to Unum for reconsideration of the
accident determination under the standard set forth in
Wickman v. Northwestern Nat’l Ins. Co., 908 F.2d 1077
(1st Cir. 1990), discussed extensively in King v. Hartford
Life & Accident Ins. Co., 414 F.3d 994 (8th Cir. 2005) (en
banc).
On remand, Plaintiff provided additional
information to Unum including an affidavit of Plaintiff, an
affidavit of Mr. Boyer’s long-time friend, Marissa
Delmoral, and information about autocross, a car racing
sport in which Mr. Boyer participated. Unum interviewed
by telephone a police officer who witnessed the car
accident and obtained photos from the police
investigation file. Unum again concluded that Mr. Boyer
did not die by accident as contemplated by the Plan. In
support of its decision, Unum stated it could not
4

Plaintiff pled and subsequently abandoned a claim for common law
breach of contract.

35A

determine Mr. Boyer’s subjective expectations and that
a
reasonable
person
with
background
and
characteristics similar to Mr. Boyer would have viewed
injury or death as a highly likely and foreseeable result
based on Mr. Boyer’s acts of speeding and attempting to
pass multiple vehicles under dangerous conditions. Now
before the Court are the parties’ second cross motions
for summary judgment.
II.
Legal Standard
A. Summary Judgment
A moving party is entitled to summary judgment
“if the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Material facts are those “that might affect the outcome of
the suit under the governing law,” and a genuine dispute
over a material fact is one “such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). Here,
Plaintiff and Defendants agree that there is no genuine
dispute over any material fact. Further, all parties agree
that because only a question of law remains to be
resolved, i.e., whether Unum’s decision to deny Plaintiff
accidental death benefits was unreasonable, the case
should be decided on summary judgment.
B. ERISA “Benefits Due” Claim
Where a plan administrator has “discretionary
authority to determine eligibility for benefits or to
construe the terms of the plan,” the court reviews the
administrator’s decision for abuse of discretion.
Barnhart v. Unum Life Ins. Co. of Am., 179 F.3d 583,
587 (8th Cir. 1999). However, where the same entity
both insures the plan and makes benefits
determinations, the court gives that conflict of interest
36A

some weight in the abuse of discretion analysis.
McClelland v. Life Ins. Co. of N. Am., 679 F.3d 755, 759
(8th Cir. 2012). Under the abuse of discretion standard,
a plan administrator’s determination must be upheld
unless the determination was unreasonable. King, 414
F.3d at 994. A reasonable determination must be
supported by substantial evidence. McClelland, 679
F.3d at 759.
III.
Discussion
A. Accident
To determine whether an occurrence was an
accident, an insurer must apply the framework
established in Wickman v. Northwestern Nat’l Ins. Co.,
908 F.2d 1077 (1st Cir. 1990), discussed extensively in
King, 414 F.3d.5 Under Wickman, “an event is an
accident if the decedent did not subjectively expect to
suffer ‘an injury similar in type or kind to that suffered’and
the suppositions underlying that expectation were
reasonable.” Nichols v. Unicare Life & Health Ins. Co.,
5

Defendants argue that the Eighth Circuit has never adopted the
Wickman standard and that the Court should allow Unum to utilize
the “reasonably foreseeable” standard it used to make its accident
determination before remand. The Court in its Order dated October
10, 2018, which ruled on the parties’ first cross motions for summary
judgment, ordered Unum to reconsider its determination that Mr.
Boyer’s car accident was not an accident under the Wickman
standard. The Eighth Circuit all but formally adopted the Wickman
test in its decision in King, 414 F.3d at 1005–06. In subsequent
decisions, the Eighth Circuit and the Western and Eastern Districts
of Missouri have applied the Wickman standard to cases like this, in
which an insurer denies accidental death benefits based on a
determination that an insured’s death did not occur as a result of an
accident. Several of those cases are cited in this Order. Defendants
fail to point to any cases out of the Eighth Circuit or the Western or
Eastern Districts of Missouri in which the court, in a case factually
and legally similar to this case, does not utilize the Wickman
standard and instead utilizes the reasonably foreseeable standard.

37A

739 F.3d 1176, 1182 (8th Cir. 2014) (quoting Wickman,
908. F.2d at 1088). The determination of whether the
suppositions were reasonable “should be made from the
perspective of the insured, allowing the insured a great
deal of latitude and taking into account the insured’s
personal characteristics and experiences.” Id. If the
decedent’s subjective expectation cannot be
determined, the inquiry is whether “a reasonable
person, with background and characteristics similar to
the insured, would have viewed the injury as highly likely
to occur as a result of the insured’s intentional conduct.”
Id.6
Defendants argue Unum’s conclusion that Mr.
Boyer’s death was not accidental was reasonable
based on “a combination of many factors – speeding,
the lack of a shoulder for the road, trees and brush close
by, the snowy/wet conditions, at twilight, in a No
Passing Zone with numerous hills, along with the
attempt to pass five vehicles.” (Doc. #62, p. 17).
Defendants argue that a driver with experience in
autocross racing, like Mr. Boyer, would have
“objectively believed that death was highly likely to
occur.” (Doc. #62, p. 18). Plaintiff argues evidence of
Mr. Boyer’s subjective expectations establishes the car
crash was an accident and that his subjective beliefs
were reasonable. Plaintiff argues alternatively that a
reasonable person would not have viewed death as
highly likely to occur as a result of Mr. Boyer’s actions.
The Court is not convinced by Defendants’ misconstruction of the
Wickman standard as one in which “plaintiff’s burden is to prove that
an objective person . . . would conclude that [Mr. Boyer’s] death from
his car crash was highly unlikely to occur.” (Doc. #62, p. 12).
Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101 (1989), cited by
Defendants, sets forth no such rule and is not a case about the
denial of accidental death benefits.
6

38A

Unum drew no conclusion regarding Mr. Boyer’s
subjective expectations based on its determination that
there is no reliable information “about [Mr. Boyer’s]
subjective belief when he made the decision to engage
in the inherently risky behavior.” (Doc. #62, p. 12). Unum
argues that the “evidence submitted relates to [Mr.
Boyer’s] state-of-mind in the days leading up to the
wreck,” which is irrelevant to the subjective expectation
analysis. (Doc. #62, p. 12). Binding case law does not
limit the subjective expectation analysis to the moments
before the accident, as Unum suggests. To the contrary,
the Eighth Circuit has rejected insurance companies’
attempts to narrow the subjective expectation analysis
window to the moments before an accident. See
Nichols, 739 F.3d at 1183; McClelland, 679 F.3d at 760–
61.
Unum’s failure to analyze the affidavits submitted
by Plaintiff during remand to determine Mr. Boyer’s
subjective expectations is unreasonable and an abuse of
discretion in light of Eighth Circuit precedent. In Nichols,
the Eighth Circuit found an accidental death insurance
plan participant’s death from mixed prescription drug
intoxication was accidental. Nichols, 739 F.3d at 1182–
84. The Court found that the insurance company erred in
denying accidental death benefits coverage in that the
insurance company “ignore[d] the subjective evidence
submitted by [plaintiff], and instead [made] leaps to get
to the ‘objective’ conclusion it desire[d].” Id. at 1183. The
Court looked to evidence demonstrating that the insured
“had been taking this combination of prescribed
medications . . . for [several months]” in determining the
insured’s subjective state of mind leading up to her
death. Id.

39A

In McClelland, the Eighth Circuit found the denial
of accidental death benefits to be an abuse of discretion
in the case of a plan participant who died as a result of a
motorcycle accident in which the insured had an alcohol
level above the legal limit, was driving at a high rate of
speed, and was weaving in and out of traffic. McClelland,
679 F.3d at 760–62. The Eighth Circuit found the
insurance company abused its discretion by failing to
“take a subjective look at the insured’s state of mind” as
is required under Wickman. Id. at 760. The Court
analyzed the insured’s behaviors the morning of the
motorcycle accident and considered his plans for the
afternoon. In finding that the insured “did not think it highly
likely that he would die on [the day of his death],” the
Court considered that the insured had plans to do yard
work that afternoon, that he showed no signs of
intoxication prior to the accident, and that his behavior
on the morning of the accident was normal. Id. at 760–
61. The Court found “the objective evidence that [the
insured] was traveling at a high rate of speed with an
elevated blood alcohol level does not alter this subjective
evidence.” Id. at 761. The Court found “[t]here was
overwhelming evidence that subjectively, [the insured],
an experienced motorcyclist, intended to ride his Harley
to visit friends and then return safely home to do yard
work.” Id.
Defendants’ assertion that subjective evidence
of Mr. Boyer’s intent does not exist is incorrect.
Substantial evidence demonstrates the car crash
resulting in Mr. Boyer’s death was an accident because
Mr. Boyer did not subjectively expect to crash his car
and die as a result of his actions, and his expectation
was reasonable. Like the insured in McClelland, Mr.
Boyer was an experienced and skilled driver with a
40A

passion for and knowledge of cars. Much like in
McClelland,
affidavits
submitted
by
Plaintiff
demonstrate that Mr. Boyer was traveling to visit
friends, with plans for the next day; in this case, to help
a friend choose and purchase a car. Mr. Boyer had no
alcohol in his system. The evidence shows that Mr.
Boyer was happy and in a good place in life, and there
is no evidence demonstrating otherwise. As was the
case in McClelland, there is “not even a scintilla of
evidence that [Mr. Boyer] thought his death was highly
likely to occur.” Id. The Court concludes that Unum
abused its discretion by completely foregoing the
analysis of Mr. Boyer’s subjective expectations “to get
to the ‘objective’ conclusion it desires.” Nichols, 739
F.3d at 1182.
However, even if Mr. Boyer’s subjective
expectations were undeterminable, “a reasonable
person, with background and characteristics similar to
[Mr. Boyer], would not have viewed his death as highly
likely to occur as a result of his conduct.” Id. (quoting
Wickman, 908 F.2d at 1088). Defendants acknowledge
Mr. Boyer had a passion for cars and motorcycles and
he raced cars in a sport called autocross. Mr. Boyer
worked on breaking down and rebuilding vehicles. A
reasonable person with Mr. Boyer’s background and
experience with cars would not have viewed his car
crash and death as highly likely to occur as a result of
unlawfully passing vehicles at a high rate of speed. As a
car aficionado and experienced autocross racer, a
person in Mr. Boyer’s shoes would be confident in his
driving abilities, as Unum admits, and make driving
decisions in line with his confidence.
Mr. Boyer miscalculated his ability to pass and
seemingly made an error in judgment, but substantial
41A

evidence does not demonstrate that a reasonable
person with Mr. Boyer’s background would have viewed
death as highly likely to occur as a result of his conduct.
Defendants make much of the road conditions and the
fact it was “dusk or twilight” at the time of the accident.
(Doc. #62, p. 14). However, that Mr. Boyer misjudged the
conditions of the road and the surrounding landscape
does not demonstrate that a reasonable person with Mr.
Boyer’s background would have viewed his death as
highly likely to occur. See McClelland, 679 F.3d at 758
(finding insured did not subjectively expect to be injured
or die even though insured was weaving in and out of
traffic, not wearing a helmet, and speeding around a
curve with a soft gravel shoulder). Rather, “[g]enerally,
insureds purchase accident insurance for the very
purpose of obtaining protection from their own
miscalculations and misjudgments.” Id. at 762 (quoting
Wickman, 908 F.2d at 1088) (internal quotation marks
omitted).
Accordingly, Unum abused its discretion by
foregoing the analysis of Mr. Boyer’s subjective
expectations and by unreasonably determining that a
reasonable person with background and characteristics
similar to Mr. Boyer would have viewed his death as
highly likely to occur as a result of his conduct. Summary
judgment is granted in favor of Plaintiff on her claim for
recovery of accidental death benefits.
B. Attorney’s Fees
Plaintiff argues she is entitled to prejudgment
interest and attorney’s fees under ERISA § 502(g), 29
U.S.C. § 1132(g). Plaintiff concedes additional briefing is
needed on the issue. Defendants assert a pre-judgment
request for attorney’s fees is not ripe under Federal Rule
of Civil Procedure 54(d). Defendants argue a motion for
42A

attorney’s fees should be filed following the entry of
judgment. The Court agrees that Plaintiff’s motion for
prejudgment interest and attorney’s fees is premature,
especially considering the lack of briefing and absence
of evidentiary support submitted on the matter.
Accordingly, Plaintiff’s motion for summary judgment on
the attorney’s fees issue is denied without prejudice.
IV. Conclusion
The Court finds Unum abused its discretion in
denying Plaintiff accidental death benefits in that its
determination was unreasonable and not supported by
substantial evidence. Accordingly, Plaintiff’s Second
Motion for Summary Judgment (Doc. #59) is GRANTED
IN PART and DENIED IN PART. Plaintiff’s motion for
summary judgment on Count I of her Complaint for
recovery of accidental death benefits under 29 U.S.C. §
1132(a)(1)(B) is granted. Plaintiff’s motion for summary
judgment on her request for an award of prejudgment
interest and attorney’s fees is denied without prejudice.
Defendants’ Second Motion for Summary Judgment
(Doc. #61) is DENIED.
The Court ORDERS the following briefing
schedule for Plaintiff’s motion for attorney’s fees:
1) Plaintiff shall file a motion for attorney’s fees on
or before August 14, 2019.
2) Defendants shall file a response on or before
August 28, 2019.
3) Plaintiff shall file a reply on or before September 11,
2019.

IT IS SO ORDERED.
43A

/s/ Stephen R. Bough
STEPHEN R. BOUGH
UNITED STATES DISTRICT JUDGE
Dated: July 31, 2019

44A

IN THE UNITED STATES DISTRICT COURT FOR
THE
WESTERN DISTRICT OF MISSOURI
SOUTHWESTERN DIVISION
AMBER BOYER,
Plaintiff,
v.
CaseNo. 3:17-cv-05053 SRB
SCHNEIDER ELECTRIC HOLDINGS, INC.
LIFE AND ACCIDENT PLAN,
SCHNEIDER ELECTRIC HOLDINGS, INC.,
and UNUM LIFE INSURANCE COMPANY
OF AMERICA,
Defendants.
ORDER
Before the Court is Plaintiff’s Motion for Attorney
Fees and Pre-Judgment Interest and Suggestions in
Support. (Doc. #69). For the following reasons the
Motion is GRANTED with modifications.
I.
Background
Eric Boyer was employed by Schneider Electric
Holdings, Inc. (“Schneider”) and participated in a Life and
Accident Plan (“the Plan”) sponsored and administered
by Schneider, and governed by the Employee
Retirement Income Security Act (“ERISA”), 29 U.S.C. §§
1001 et seq. Unum Life Insurance Company of America
(“Unum”) insures the benefits available under the Plan
through a group insurance policy (“the Policy”). The
45A

Policy grants Unum “discretionary authority to make
benefit determinations under the Plan.” (Doc. #43, p. 3).
Mr. Boyer possessed basic life insurance coverage and
accidental death coverage. On January 22, 2016, Mr.
Boyer died in a single-car accident after his vehicle ran
off the roadway and struck a tree. Schneider filed a claim
for life and accidental death benefits under the Plan on
behalf of Plaintiff, Mr. Boyer’s sister and sole beneficiary
of the Policy. Unum approved Plaintiff’s claim for life
insurance benefits and denied Plaintiff’s claim for
accidental death benefits. Unum based its denial of
accidental death benefits on (1) its conclusion that Mr.
Boyer’s death was not an “accidental bodily injury” and
(2) the “crime exclusion” in the Plan.
Plaintiff appealed Unum’s denial of accidental death
benefits through Unum’s administrative appeal process.
On July 8, 2016, Unum denied Plaintiff’s appeal and
advised that Plaintiff’s next step to challenging Unum’s
decision would be to bring a civil suit under ERISA.
Accordingly, Plaintiff hired counsel to pursue a civil
claim. On April 11, 2017, Counsel sent a letter to Unum
to give Unum an opportunity to reverse its decision
before filing a lawsuit. On April 18, 2017, Unum
responded to the letter and informed counsel that
Plaintiff had already exhausted the appeal process and
that no further internal review was available. Accordingly,
Plaintiff, through counsel, brought a claim for “benefits
due” under ERISA § 502(a)(1)(B), 29 U.S.C. §
1132(a)(1)(B).
The parties filed cross motions for summary
judgment. The Court found that Unum abused its
discretion in denying accidental death benefits based on
the Plan’s crime exclusion. The Court also found Unum
used the incorrect standard in determining Mr. Boyer’s
46A

death was not an accident and remanded the case to
Unum for reconsideration. On remand, Unum again
concluded that Mr. Boyer’s death was not accidental.
The parties then filed a second round of cross motions
for summary judgment. The Court granted summary
judgment in favor of Plaintiff, finding Unum abused its
discretion in determining Mr. Boyer’s death was not
accidental and finding Plaintiff was entitled to recover
accidental death benefits. Plaintiff now moves the Court
for attorney’s fees and prejudgment interest.
II.
Legal Standards & Discussion
A. Attorney’s Fees
“ERISA provides the district court discretion to award
‘a reasonable attorney’s fee and costs of action to either
party.’” Delcastillo v. Odyssey Res. Mgmt., Inc., 431 F.3d
1124, 1131– 32 (8th Cir. 2005) (citing 29 U.S.C. §
1132(g)(1)). In deciding whether to award attorney’s fees
in an ERISA case, the Court considers: “(1) degree of bad
faith; (2) ability to pay; (3) deterrence; (4) significance of
the legal question; and (5) relative merits of the
positions.” Nichols v. Unicare Life & Health Ins. Co., 739
F.3d 1176, 1184 (8th Cir. 2014). “[A]lthough there is no
presumption in favor of attorney fees in an ERISA action,
a prevailing plaintiff rarely fails to receive fees.” Starr v.
Metro Sys., Inc., 461 F.3d 1036, 1041 (8th Cir. 2006)
(internal citation omitted). A lodestar calculation, which is
“the number of hours reasonably expended on the
litigation multiplied by a reasonable hourly rate, is the
appropriate method for determining the attorney fee
award in most cases.” McClelland v. Life Ins. Co. of N.
Am., 679 F.3d 755, 762 (8th Cir. 2012) (citing Hensley v.
Eckerhart, 461 U.S. 424, 433–34 (1983)). The Court may
award fees in excess of the lodestar amount only in “rare”
and “exceptional” circumstances in which evidence
47A

demonstrates “that the lodestar fee would not have been
adequate to attract competent counsel.” Tussey v. ABB,
Inc., No. 06-04305-CV-C-NKL, 2012 WL 5386033, at * 4–
5 (W.D. Mo. Nov. 2, 2012) (quoting Perdue v. Kenny A.
ex rel. Winn, 559 U.S. 542, 553 (2010) (internal quotation
marks omitted)), vacated on other grounds, 746 F.3d 327
(8th Cir. 2014).
Plaintiff seeks attorney’s fees for a total of 360.4
hours of legal work completed from August 8, 2016,
through August 5, 2019. The applicable rate varies
based on each counsel’s experience level, but the
blended rate is $292.76 per hour. The lodestar
calculation and total award of attorney’s fees sought by
Plaintiff is $108,511.50. Plaintiff also seeks
reimbursement for costs associated with the lawsuit,
which total $1,447.20. Plaintiff does not argue this case
presents rare and exceptional circumstances that
warrant an enhanced attorney’s fee, but rather
“leave[s] it up to the Court to decide whether an
increase in fees is appropriate.” (Doc. #69, p. 9).
Defendants do not dispute that Plaintiff is entitled to
attorney’s fees and costs given this Court’s summary
judgment rulings. Defendants agree that the billing
rates utilized for the attorney’s fees calculation are
reasonable. Defendants argue, however, that “part of
the fee award is sought for activities of counsel during
the administrative process,” which is not recoverable.
(Doc. #72, p. 1). Specifically, Defendants argue “the
entries between August 8, 2016, and April 11, 2017,
appear to be used for the pre-litigation administrative
proceeding.” (Doc. #72, p. 2). In support, Defendants
cite Parke v. Reliance Standard Ins. Co., 368 F.3d 999,
1011 (8th Cir. 2004), which held that “ERISA does not

48A

allow recovery of attorney's fees incurred during prelitigation administrative proceedings.”
In Parke, the “administrative proceedings” for which
the plaintiff argued he was entitled attorney’s fees
included proceedings that occurred “during [defendant’s]
administrative review process.” Id. at 1010 (emphasis
added). Here, Plaintiff navigated and completed the
administrative appeal process before hiring counsel.
Defendants argue that Plaintiff’s Counsel’s time spent
meeting with Plaintiff, reviewing her case, communicating
with Unum, and drafting and sending a demand letter to
Unum prior to filing a complaint with this Court constitutes
legal work related to administrative proceedings.
Defendant cites no case that would support such a
conclusion. Parke made clear that “pre-litigation
administrative proceedings” are those proceedings that
are “mandatory in a claim for benefits under ERISA’s
exhaustion requirement.” Id. at 1022. As confirmed by
Unum in response to Plaintiff’s demand letter, Plaintiff
had already exhausted the administrative appeal
process, and Unum stood by its appeal decision. Further,
the demand letter Plaintiff sent to Unum was done in
anticipation of litigation, or “prior to suit being filed.” (Doc.
1-6, p. 1). Accordingly, the legal work completed by
counsel between August 8, 2016, and April 11, 2017, was
not related to pre-litigation administrative proceedings.
In consideration of the relevant factors set forth
above, the Court finds the lodestar calculation
provided by Plaintiff is the appropriate measure of
attorney’s fees. The Court also finds Plaintiff is not
entitled to an increase in attorney’s fees as Plaintiff
does not argue and has made no showing that the
lodestar fee is inadequate. Plaintiff is entitled to the full
amount of attorney’s fees and costs she requests.
49A

B. Prejudgment Interest
“It is well-settled in the Eighth Circuit that ERISA’s §
502(a)(3)(B) allows an award of prejudgment interest to
compensate a plaintiff for delayed benefits following a
successful civil action to recover those benefits.”
Jackson v. Fortis Benefits Ins. Co., 105 F. Supp. 2d
1055, 1058 (D. Minn. 2000), aff’d, 245 F.3d 748 (8th Cir.
2001) (citing Dependahl v. Falstaff Brewing Corp., 653
F.2d 1208 (8th Cir. 1981)). “The Eighth Circuit has held
that in an ERISA case, a court must calculate []
prejudgment interest using the rate established by [28
U.S.C.] § 1961.” Tussey, 2012 WL 2368471, at *4
(quoting Sheehan v. Guardian Life Ins. Co., 372 F.3d
962, 969 (8th Cir.2004) (internal quotation marks
omitted)); Mansker v. TMG Life Ins. Co., 54 F.3d 1322,
1331 (8th Cir.1995) (“28 U.S.C. § 1961 provides the
proper measure for determining rates of [prejudgment
interest] under ERISA.”). Section 1961 states:
Interest shall be allowed on any money
judgment in a civil case recovered in a
district court.... Such interest shall be
calculated from the date of the entry of the
judgment, at a rate equal to the weekly
average 1–year constant maturity Treasury
yield, as published by the Board of
Governors of the Federal Reserve System,
for the calendar week preceding the date of
the judgment.
§ 1961(a). “Interest shall be computed daily to the date
of payment . . . and shall be compounded annually.” §
1961(b).
All parties agree Plaintiff is entitled to prejudgment
interest. Plaintiff argues the proper interest rate is 9% per
50A

annum according to Unum’s internal claims manual.
Defendants argue the Court must use the rate set forth
in § 1961. As evidenced by the language of the claims
manual itself, and by the declaration and chart filed by
Defendants, the 9% per annum interest rate cited by
Plaintiff does not apply to Plaintiff’s claim for accidental
death benefits under Mr. Boyer’s group insurance policy.
(Doc. #69-1, pp. 1, 9; Doc. #72-1, pp. 1, 2, 6).
“[Section] 1961 provides the proper measure for
determining rates of [prejudgment interest] under
ERISA.” Mansker, 54 F.3d at 1331. Pursuant to § 1961,
the weekly average 1-year constant maturity Treasury
yield from the calendar week preceding the Court’s July
31, 2019, Order finding Plaintiff was entitled to accidental
death benefits is 1.98%. Under the terms of the Policy,
payment would have been due to Plaintiff on June 10,
2016, the date of Unum’s initial decision, had Unum
properly approved Plaintiff’s claim for accidental death
benefits. (Doc. #58-1, p. 148). Accordingly, the Court
finds Plaintiff is entitled to prejudgment interest at a rate
of 1.98%, computed daily and compounded annually,
from June 10, 2016, through the date of payment.
III.
Conclusion
Accordingly, Plaintiff’s Motion for Attorney Fees and
Pre-Judgment Interest and Suggestions in Support (Doc.
#69) is granted with modifications. Plaintiff is entitled to
$108,511.50 in attorney’s fees and $1,447.20 in costs.
Plaintiff is further entitled to prejudgment interest at a
rate of 1.98%, computed daily and compounded
annually, from June 10, 2016, through the date of
payment.
IT IS SO ORDERED.
/s/ Stephen R. Bough
51A

STEPHEN R. BOUGH
UNITED STATES DISTRICT JUDGE
Dated: September 23, 2019

52A

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3144
Amber Boyer
Appellee
v.
Schneider Electric Holdings, Inc., et al.
Appellants

Appeal from U.S. District Court for the Western District
of Missouri - Joplin
(3:17-cv-05053-SRB)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
May 14, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
__________________
/s/ Michael E. Gans

53A

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3144
Amber Boyer
Plaintiff Appellee
v.
Schneider Electric Holdings, Inc.; Schneider Electric
Holdings, Inc. Life and Accident Plan;
Unum Life Insurance Company of America
Defendants Appellants
Appeal from U.S. District Court for the Western District
of Missouri - Joplin
(3:17-cv-05053-SRB)
JUDGMENT

Before COLLOTON, ARNOLD, and KELLY, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court,
briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and
adjudged that the judgment of the district court in this
cause is reversed and the cause is remanded to the
54A

district court for proceedings consistent with the
opinion of this court.
April 05, 2021
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
29 U.S.C.A. § 1022
§ 1022. Summary plan description
(a) A summary plan description of any employee benefit
plan shall be furnished to participants and beneficiaries
as provided in section 1024(b) of this title. The summary
plan description shall include the information described
in subsection (b), shall be written in a manner calculated
to be understood by the average plan participant, and
shall be sufficiently accurate and comprehensive to
reasonably apprise such participants and beneficiaries
of their rights and obligations under the plan. A summary
of any material modification in the terms of the plan and
any change in the information required under subsection
(b) shall be written in a manner calculated to be
understood by the average plan participant and shall be
furnished in accordance with section 1024(b)(1) of this
title.
(b) The summary plan description shall contain the
following information: The name and type of
administration of the plan; in the case of a group health
plan (as defined in section 1191b(a)(1) of this title),
whether a health insurance issuer (as defined in section
1191b(b)(2) of this title) is responsible for the financing
or administration (including payment of claims) of the
plan and (if so) the name and address of such issuer; the
name and address of the person designated as agent for
55A

the service of legal process, if such person is not the
administrator; the name and address of the
administrator; names, titles, and addresses of any
trustee or trustees (if they are persons different from the
administrator); a description of the relevant provisions of
any applicable collective bargaining agreement; the
plan's requirements respecting eligibility for participation
and benefits; a description of the provisions providing for
nonforfeitable pension benefits; circumstances which
may result in disqualification, ineligibility, or denial or loss
of benefits; the source of financing of the plan and the
identity of any organization through which benefits are
provided; the date of the end of the plan year and
whether the records of the plan are kept on a calendar,
policy, or fiscal year basis; the procedures to be followed
in presenting claims for benefits under the plan including
the office at the Department of Labor through which
participants and beneficiaries may seek assistance or
information regarding their rights under this chapter and
the Health Insurance Portability and Accountability Act of
1996 with respect to health benefits that are offered
through a group health plan (as defined in section
1191b(a)(1) of this title), the remedies available under
the plan for the redress of claims which are denied in
whole or in part (including procedures required under
section 1133 of this title), and if the employer so elects
for purposes of complying with section 1181(f)(3)(B)(i) of
this title, the model notice applicable to the State in which
the participants and beneficiaries reside.
29 U.S.C.A. § 1022 (West).

56A

29 U.S.C.A. § 1132
§ 1132. Civil enforcement
(a) Persons empowered to bring a civil action
A civil action may be brought-(1) by a participant or beneficiary-(A) for the relief provided for in subsection (c) of this
section, or
(B) to recover benefits due to him under the terms of his
plan, to enforce his rights under the terms of the plan, or
to clarify his rights to future benefits under the terms of
the plan;
(2) by the Secretary, or by a participant, beneficiary or
fiduciary for appropriate relief under section 1109 of this
title;
(3) by a participant, beneficiary, or fiduciary (A) to enjoin
any act or practice which violates any provision of this
subchapter or the terms of the plan, or (B) to obtain other
appropriate equitable relief (i) to redress such violations
or (ii) to enforce any provisions of this subchapter or the
terms of the plan;
(4) by the Secretary, or by a participant, or beneficiary
for appropriate relief in the case of a violation of 1025(c)
of this title;
(5) except as otherwise provided in subsection (b), by
the Secretary (A) to enjoin any act or practice which
violates any provision of this subchapter, or (B) to obtain
other appropriate equitable relief (i) to redress such
violation or (ii) to enforce any provision of this
subchapter;
(6) by the Secretary to collect any civil penalty under
paragraph (2), (4), (5), (6), (7), (8), or (9) of subsection
(c) or under subsection (i) or (l);

57A

(7) by a State to enforce compliance with a qualified
medical child support order (as defined in section
1169(a)(2)(A) of this title);
(8) by the Secretary, or by an employer or other person
referred to in section 1021(f)(1) of this title, (A) to enjoin
any act or practice which violates subsection (f) of
section 1021 of this title, or (B) to obtain appropriate
equitable relief (i) to redress such violation or (ii) to
enforce such subsection;
(9) in the event that the purchase of an insurance
contract or insurance annuity in connection with
termination of an individual's status as a participant
covered under a pension plan with respect to all or any
portion of the participant's pension benefit under such
plan constitutes a violation of part 4 of this title1or the
terms of the plan, by the Secretary, by any individual who
was a participant or beneficiary at the time of the alleged
violation, or by a fiduciary, to obtain appropriate relief,
including the posting of security if necessary, to assure
receipt by the participant or beneficiary of the amounts
provided or to be provided by such insurance contract or
annuity, plus reasonable prejudgment interest on such
amounts;
(10) in the case of a multiemployer plan that has been
certified by the actuary to be in endangered or critical
status under section 1085 of this title, if the plan sponsor(A) has not adopted a funding improvement or
rehabilitation plan under that section by the deadline
established in such section, or
(B) fails to update or comply with the terms of the funding
improvement or rehabilitation plan in accordance with
the requirements of such section,

58A

by an employer that has an obligation to contribute with
respect to the multiemployer plan or an employee
organization that represents active participants in the
multiemployer plan, for an order compelling the plan
sponsor to adopt a funding improvement or rehabilitation
plan or to update or comply with the terms of the funding
improvement or rehabilitation plan in accordance with
the requirements of such section and the funding
improvement or rehabilitation plan; or
(11) in the case of a multiemployer plan, by an employee
representative, or any employer that has an obligation to
contribute to the plan, (A) to enjoin any act or practice
which violates subsection (k) of section 1021 of this title
(or, in the case of an employer, subsection (l) of such
section), or (B) to obtain appropriate equitable relief (i) to
redress such violation or (ii) to enforce such subsection.
(b) Plans qualified under Internal Revenue Code;
maintenance of actions involving delinquent
contributions
(1) In the case of a plan which is qualified under section
401(a), 403(a), or 405(a)2of Title 26 (or with respect to
which an application to so qualify has been filed and has
not been finally determined) the Secretary may exercise
his authority under subsection (a)(5) with respect to a
violation of, or the enforcement of, parts 2 and 3 of this
subtitle (relating to participation, vesting, and funding),
only if-(A) requested by the Secretary of the Treasury, or
(B) one or more participants, beneficiaries, or fiduciaries,
of such plan request in writing (in such manner as the
Secretary shall prescribe by regulation) that he exercise
such authority on their behalf. In the case of such a
request under this paragraph he may exercise such
authority only if he determines that such violation affects,
59A

or such enforcement is necessary to protect, claims of
participants or beneficiaries to benefits under the plan.
(2) The Secretary shall not initiate an action to enforce
section 1145 of this title.
(3) Except as provided in subsections (c)(9) and (a)(6)
(with respect to collecting civil penalties under
subsection (c)(9)), the Secretary is not authorized to
enforce under this part any requirement of part 7 against
a health insurance issuer offering health insurance
coverage in connection with a group health plan (as
defined in section 1191b(a)(1) of this title). Nothing in this
paragraph shall affect the authority of the Secretary to
issue regulations to carry out such part.
(c) Administrator's refusal to supply requested
information; penalty for failure to provide annual
report in complete form
(1) Any administrator (A) who fails to meet the
requirements of paragraph (1) or (4) of section 1166 of
this title, section 1021(e)(1) of this title, section 1021(f) of
this title, or section 1025(a) of this title with respect to a
participant or beneficiary, or (B) who fails or refuses to
comply with a request for any information which such
administrator is required by this subchapter to furnish to
a participant or beneficiary (unless such failure or refusal
results from matters reasonably beyond the control of the
administrator) by mailing the material requested to the
last known address of the requesting participant or
beneficiary within 30 days after such request may in the
court's discretion be personally liable to such participant
or beneficiary in the amount of up to $100 a day from the
date of such failure or refusal, and the court may in its
discretion order such other relief as it deems proper. For
purposes of this paragraph, each violation described in
subparagraph (A) with respect to any single participant,
60A

and each violation described in subparagraph (B) with
respect to any single participant or beneficiary, shall be
treated as a separate violation.
(2) The Secretary may assess a civil penalty against any
plan administrator of up to $1,000 a day from the date of
such plan administrator's failure or refusal to file the
annual report required to be filed with the Secretary
under section 1021(b)(1) of this title. For purposes of this
paragraph, an annual report that has been rejected
under section 1024(a)(4) of this title for failure to provide
material information shall not be treated as having been
filed with the Secretary.
(3) Any employer maintaining a plan who fails to meet
the notice requirement of section 1021(d) of this title with
respect to any participant or beneficiary or who fails to
meet the requirements of section 1021(e)(2) of this title
with respect to any person or who fails to meet the
requirements of section 1082(d)(12)(E)2of this title with
respect to any person may in the court's discretion be
liable to such participant or beneficiary or to such person
in the amount of up to $100 a day from the date of such
failure, and the court may in its discretion order such
other relief as it deems proper.
(4) The Secretary may assess a civil penalty of not more
than $1,000 a day for each violation by any person of
subsection (j), (k), or (l) of section 1021 of this title or
section 1144(e)(3) of this title.
(5) The Secretary may assess a civil penalty against any
person of up to $1,000 a day from the date of the
person's failure or refusal to file the information required
to be filed by such person with the Secretary under
regulations prescribed pursuant to section 1021(g) of
this title.

61A

(6) If, within 30 days of a request by the Secretary to a
plan administrator for documents under section
1024(a)(6) of this title, the plan administrator fails to
furnish the material requested to the Secretary, the
Secretary may assess a civil penalty against the plan
administrator of up to $100 a day from the date of such
failure (but in no event in excess of $1,000 per request).
No penalty shall be imposed under this paragraph for
any failure resulting from matters reasonably beyond the
control of the plan administrator.
(7) The Secretary may assess a civil penalty against a
plan administrator of up to $100 a day from the date of
the plan administrator's failure or refusal to provide
notice to participants and beneficiaries in accordance
with subsection (i) or (m) of section 1021 of this title. For
purposes of this paragraph, each violation with respect
to any single participant or beneficiary shall be treated
as a separate violation.
(8) The Secretary may assess against any plan sponsor
of a multiemployer plan a civil penalty of not more than
$1,100 per day-(A) for each violation by such sponsor of the requirement
under section 1085 of this title to adopt by the deadline
established in that section a funding improvement plan
or rehabilitation plan with respect to a multiemployer plan
which is in endangered or critical status, or
(B) in the case of a plan in endangered status which is
not in seriously endangered status, for failure by the plan
to meet the applicable benchmarks under section 1085
of this title by the end of the funding improvement period
with respect to the plan.
(9)(A) The Secretary may assess a civil penalty against
any employer of up to $100 a day from the date of the
employer's failure to meet the notice requirement of
62A

section 1181(f)(3)(B)(i)(I) of this title. For purposes of this
subparagraph, each violation with respect to any single
employee shall be treated as a separate violation.
(B) The Secretary may assess a civil penalty against any
plan administrator of up to $100 a day from the date of
the plan administrator's failure to timely provide to any
State the information required to be disclosed under
section 1181(f)(3)(B)(ii) of this title. For purposes of this
subparagraph, each violation with respect to any single
participant or beneficiary shall be treated as a separate
violation.
(10) Secretarial enforcement authority relating to
use of genetic information
(A) General rule
The Secretary may impose a penalty against any plan
sponsor of a group health plan, or any health insurance
issuer offering health insurance coverage in connection
with the plan, for any failure by such sponsor or issuer to
meet the requirements of subsection (a)(1)(F), (b)(3), (c),
or (d) of section 1182 of this title or section 1181 or
1182(b)(1) of this title with respect to genetic information,
in connection with the plan.
(B) Amount
(i) In general
The amount of the penalty imposed by subparagraph (A)
shall be $100 for each day in the noncompliance period
with respect to each participant or beneficiary to whom
such failure relates.
(ii) Noncompliance period
For purposes of this paragraph, the term “noncompliance
period” means, with respect to any failure, the period-(I) beginning on the date such failure first occurs; and
(II) ending on the date the failure is corrected.
(C) Minimum penalties where failure discovered
63A

Notwithstanding clauses (i) and (ii) of subparagraph (D):
(i) In general
In the case of 1 or more failures with respect to a
participant or beneficiary-(I) which are not corrected before the date on which the
plan receives a notice from the Secretary of such
violation; and
(II) which occurred or continued during the period
involved;
the amount of penalty imposed by subparagraph (A) by
reason of such failures with respect to such participant
or beneficiary shall not be less than $2,500.
(ii) Higher minimum penalty where violations are
more than de minimis
To the extent violations for which any person is liable
under this paragraph for any year are more than de
minimis, clause (i) shall be applied by substituting
“$15,000” for “$2,500” with respect to such person.
(D) Limitations
(i) Penalty not to apply where failure not discovered
exercising reasonable diligence
No penalty shall be imposed by subparagraph (A) on any
failure during any period for which it is established to the
satisfaction of the Secretary that the person otherwise
liable for such penalty did not know, and exercising
reasonable diligence would not have known, that such
failure existed.
(ii) Penalty not to apply to failures corrected within
certain periods
No penalty shall be imposed by subparagraph (A) on any
failure if-(I) such failure was due to reasonable cause and not to
willful neglect; and

64A

(II) such failure is corrected during the 30-day period
beginning on the first date the person otherwise liable for
such penalty knew, or exercising reasonable diligence
would have known, that such failure existed.
(iii) Overall limitation for unintentional failures
In the case of failures which are due to reasonable cause
and not to willful neglect, the penalty imposed by
subparagraph (A) for failures shall not exceed the
amount equal to the lesser of-(I) 10 percent of the aggregate amount paid or incurred
by the plan sponsor (or predecessor plan sponsor)
during the preceding taxable year for group health plans;
or
(II) $500,000.
(E) Waiver by Secretary
In the case of a failure which is due to reasonable cause
and not to willful neglect, the Secretary may waive part
or all of the penalty imposed by subparagraph (A) to the
extent that the payment of such penalty would be
excessive relative to the failure involved.
(F) Definitions
Terms used in this paragraph which are defined in
section 1191b of this title shall have the meanings
provided such terms in such section.
(11) The Secretary and the Secretary of Health and
Human Services shall maintain such ongoing
consultation as may be necessary and appropriate to
coordinate enforcement under this subsection with
enforcement under section 1320b-14(c)(8)2of Title 42.
(12) The Secretary may assess a civil penalty against
any sponsor of a CSEC plan of up to $100 a day from
the date of the plan sponsor's failure to comply with the
requirements of section 1085a(j)(3) of this title to
establish or update a funding restoration plan.
65A

(d) Status of employee benefit plan as entity
(1) An employee benefit plan may sue or be sued under
this subchapter as an entity. Service of summons,
subpena, or other legal process of a court upon a trustee
or an administrator of an employee benefit plan in his
capacity as such shall constitute service upon the
employee benefit plan. In a case where a plan has not
designated in the summary plan description of the plan
an individual as agent for the service of legal process,
service upon the Secretary shall constitute such service.
The Secretary, not later than 15 days after receipt of
service under the preceding sentence, shall notify the
administrator or any trustee of the plan of receipt of such
service.
(2) Any money judgment under this subchapter against
an employee benefit plan shall be enforceable only
against the plan as an entity and shall not be enforceable
against any other person unless liability against such
person is established in his individual capacity under this
subchapter.
(e) Jurisdiction
(1) Except for actions under subsection (a)(1)(B) of this
section, the district courts of the United States shall have
exclusive jurisdiction of civil actions under this
subchapter brought by the Secretary or by a participant,
beneficiary, fiduciary, or any person referred to in section
1021(f)(1) of this title. State courts of competent
jurisdiction and district courts of the United States shall
have concurrent jurisdiction of actions under paragraphs
(1)(B) and (7) of subsection (a) of this section.
(2) Where an action under this subchapter is brought in
a district court of the United States, it may be brought in
the district where the plan is administered, where the
breach took place, or where a defendant resides or may
66A

be found, and process may be served in any other district
where a defendant resides or may be found.
(f) Amount in controversy; citizenship of parties
The district courts of the United States shall have
jurisdiction, without respect to the amount in controversy
or the citizenship of the parties, to grant the relief
provided for in subsection (a) of this section in any
action.
(g) Attorney's fees and costs; awards in actions
involving delinquent contributions
(1) In any action under this subchapter (other than an
action described in paragraph (2)) by a participant,
beneficiary, or fiduciary, the court in its discretion may
allow a reasonable attorney's fee and costs of action to
either party.
(2) In any action under this subchapter by a fiduciary for
or on behalf of a plan to enforce section 1145 of this title
in which a judgment in favor of the plan is awarded, the
court shall award the plan-(A) the unpaid contributions,
(B) interest on the unpaid contributions,
(C) an amount equal to the greater of-(i) interest on the unpaid contributions, or
(ii) liquidated damages provided for under the plan in an
amount not in excess of 20 percent (or such higher
percentage as may be permitted under Federal or State
law) of the amount determined by the court under
subparagraph (A),
(D) reasonable attorney's fees and costs of the action, to
be paid by the defendant, and
(E) such other legal or equitable relief as the court
deems appropriate.
For purposes of this paragraph, interest on unpaid
contributions shall be determined by using the rate
67A

provided under the plan, or, if none, the rate prescribed
under section 6621 of Title 26.
(h) Service upon Secretary of Labor and Secretary of
the Treasury
A copy of the complaint in any action under this
subchapter by a participant, beneficiary, or fiduciary
(other than an action brought by one or more participants
or beneficiaries under subsection (a)(1)(B) which is
solely for the purpose of recovering benefits due such
participants under the terms of the plan) shall be served
upon the Secretary and the Secretary of the Treasury by
certified mail. Either Secretary shall have the right in his
discretion to intervene in any action, except that the
Secretary of the Treasury may not intervene in any
action under part 4 of this subtitle. If the Secretary brings
an action under subsection (a) on behalf of a participant
or beneficiary, he shall notify the Secretary of the
Treasury.
(i) Administrative assessment of civil penalty
In the case of a transaction prohibited by section 1106 of
this title by a party in interest with respect to a plan to
which this part applies, the Secretary may assess a civil
penalty against such party in interest. The amount of
such penalty may not exceed 5 percent of the amount
involved in each such transaction (as defined in section
4975(f)(4) of Title 26) for each year or part thereof during
which the prohibited transaction continues, except that,
if the transaction is not corrected (in such manner as the
Secretary shall prescribe in regulations which shall be
consistent with section 4975(f)(5) of Title 26) within 90
days after notice from the Secretary (or such longer
period as the Secretary may permit), such penalty may
be in an amount not more than 100 percent of the
amount involved. This subsection shall not apply to a
68A

transaction with respect to a plan described in section
4975(e)(1) of Title 26.
(j) Direction and control of litigation by Attorney
General
In all civil actions under this subchapter, attorneys
appointed by the Secretary may represent the Secretary
(except as provided in section 518(a) of Title 28), but all
such litigation shall be subject to the direction and control
of the Attorney General.
(k) Jurisdiction of actions against the Secretary of
Labor
Suits by an administrator, fiduciary, participant, or
beneficiary of an employee benefit plan to review a final
order of the Secretary, to restrain the Secretary from
taking any action contrary to the provisions of this
chapter, or to compel him to take action required under
this subchapter, may be brought in the district court of
the United States for the district where the plan has its
principal office, or in the United States District Court for
the District of Columbia.
(l) Civil penalties on violations by fiduciaries
(1) In the case of-(A) any breach of fiduciary responsibility under (or other
violation of) part 4 of this subtitle by a fiduciary, or
(B) any knowing participation in such a breach or
violation by any other person,
the Secretary shall assess a civil penalty against such
fiduciary or other person in an amount equal to 20
percent of the applicable recovery amount.
(2) For purposes of paragraph (1), the term “applicable
recovery amount” means any amount which is recovered
from a fiduciary or other person with respect to a breach
or violation described in paragraph (1)--

69A

(A) pursuant to any settlement agreement with the
Secretary, or
(B) ordered by a court to be paid by such fiduciary or
other person to a plan or its participants and
beneficiaries in a judicial proceeding instituted by the
Secretary under subsection (a)(2) or (a)(5).
(3) The Secretary may, in the Secretary's sole discretion,
waive or reduce the penalty under paragraph (1) if the
Secretary determines in writing that-(A) the fiduciary or other person acted reasonably and in
good faith, or
(B) it is reasonable to expect that the fiduciary or other
person will not be able to restore all losses to the plan
(or to provide the relief ordered pursuant to subsection
(a)(9)) without severe financial hardship unless such
waiver or reduction is granted.
(4) The penalty imposed on a fiduciary or other person
under this subsection with respect to any transaction
shall be reduced by the amount of any penalty or tax
imposed on such fiduciary or other person with respect
to such transaction under subsection (i) of this section
and section 4975 of Title 26.
(m) Penalty for improper distribution
In the case of a distribution to a pension plan participant
or beneficiary in violation of section 1056(e) of this title
by a plan fiduciary, the Secretary shall assess a penalty
against such fiduciary in an amount equal to the value of
the distribution. Such penalty shall not exceed $10,000
for each such distribution.
29 U.S.C.A. § 1132 (West).

70A

